<html>
<title> - COMBATING TERRORISM: VISAS STILL VULNERABLE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
              COMBATING TERRORISM: VISAS STILL VULNERABLE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2005

                               __________

                           Serial No. 109-78

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-853                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 13, 2005...............................     1
Statement of:
    Ervin, Clark Kent, director, Homeland Security Initiative, 
      Aspen Institute; Dr. James J. Carafano, senior fellow, the 
      Heritage Foundation; Susan Ginsburg, former senior counsel, 
      National Commission on Terrorist Attacks Upon the United 
      States (the 9/11 Commission); and John Daniel Morris, 
      retired Consul General, U.S. Mission to Beijing, China.....    76
        Carafano, Dr. James J....................................    83
        Ervin, Clark Kent........................................    76
        Ginsburg, Susan..........................................    94
        Morris, John Daniel......................................   104
    Ford, Jess T., Director, International Affairs and Trade 
      Division; U.S. Government Accountability Office; Ambassador 
      John E. Lange, Deputy Inspector General, U.S. Department of 
      State; Tony Edson, Acting Deputy Assistant Secretary for 
      Visa Services, Bureau of Consular Affairs, U.S. Department 
      of State; and Elaine Dezenski, Acting Deputy Assistant 
      Secretary for Policy, Border and Transportation Security, 
      U.S. Department of Homeland Security.......................     3
        Dezenski, Elaine.........................................    44
        Edson, Tony..............................................    36
        Ford, Jess T.............................................     3
        Lange, Ambassador John E.................................    27
Letters, statements, etc., submitted for the record by:
    Carafano, Dr. James J., senior fellow, the Heritage 
      Foundation, prepared statement of..........................    85
    Dezenski, Elaine, Acting Deputy Assistant Secretary for 
      Policy, Border and Transportation Security, U.S. Department 
      of Homeland Security, prepared statement of................    47
    Edson, Tony, Acting Deputy Assistant Secretary for Visa 
      Services, Bureau of Consular Affairs, U.S. Department of 
      State, prepared statement of...............................    38
    Ervin, Clark Kent, director, Homeland Security Initiative, 
      Aspen Institute, prepared statement of.....................    80
    Ford, Jess T., Director, International Affairs and Trade 
      Division, prepared statement of............................     6
    Ginsburg, Susan, former senior counsel, National Commission 
      on Terrorist Attacks Upon the United States (the 9/11 
      Commission), prepared statement of.........................    97
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   129
    Lange, Ambassador John E., Deputy Inspector General, U.S. 
      Department of State, prepared statement of.................    29
    Morris, John Daniel, retired Consul General, U.S. Mission to 
      Beijing, China, prepared statement of......................   106


              COMBATING TERRORISM: VISAS STILL VULNERABLE

                              ----------                              


                      TUESDAY, SEPTEMBER 13, 2005

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Van Hollen.
    Staff present: Lawrence Halloran, staff director and 
counsel; Thomas Costa, professional staff member; Robert A. 
Briggs, clerk; Andrew Su, minority professional staff member; 
and Jean Gosa, minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``Combating Terrorism: Visas Still 
Vulnerable,'' is called to order.
    All 19 terrorists responsible for the September 11th 
attacks obtained legitimate visas to enter the United States. 
Many should have been flagged as suspicious somewhere along the 
way, but they were not. Would they be able to get visas today? 
Four years later the answer to that question is still an 
unsettling ``probably not, but maybe.''
    Without question, the visa process has been strengthened as 
a security tool. Without question, the Department of State has 
improved training of consular officers and standardized many 
critical visa adjudication steps from embassy to embassy. 
Technology has been deployed to improve the speed and 
effectiveness of a very labor-intensive system. Fingerprints 
are collected. Identities are verified, and everyone who wants 
to visit the United States must be interviewed.
    But weaknesses and gaps remain in the visa process that 
could be exploited by those determined to do us harm. Key 
policies still lack clarity. State's consular staffing patterns 
often do not reflect current threats and new workloads. 
Training should be more focused on terrorism travel patterns 
and fraud prevention. Information sharing, although 
significantly improved, could be better. And the visa security 
program of the Department of Homeland Security [DHS], lacks 
strategic direction.
    In a report released by the Government Accountability 
Office, GAO recommends that State Department clarify visa 
procedures and better focus consular resources on visa posts 
based on national security implications and workloads; junior 
officers should not be dropped into high-threat, high-volume 
posts without language skills and adequate senior supervision. 
But that is still happening.
    GAO also recommends Congress increase the limited access 
consular officers get to the FBI criminal history records 
maintained by the National Crime Information Center [NCIC]. 
Consular officers today cannot tell whether an individual hit 
on the NCIC data base represents a major crime or an overdue 
speeding ticket. The necessary followup request to the FBI can 
take weeks to produce an answer that could be retrieved in just 
minutes.
    Recognizing the national security implications of the visa 
process, Congress charged DHS to set overall visa policies. As 
part of that mandate, DHS was specifically tasked to place visa 
security officers [VSOs], in Saudi Arabia and elsewhere. But 
after 2 years, DHS has no qualitative or quantitative 
assessments of VSO activities in Saudi Arabia. There is no 
strategic plan to guide deployment of VSOs elsewhere.
    Balancing the demands of national security against the very 
real threat to facilitate commerce, education and tourism will 
never be easy. If we are to remain a welcoming and secure 
Nation, the visa process must function as an efficient and 
effective portal, admitting those who would enrich our culture, 
while denying entry to those who would seek to destroy it.
    Our witnesses bring a wealth of expertise and experience to 
this discussion of visa security. We appreciate their 
willingness to be here today and we look forward to their 
testimony.
    We have two panels. Our first panel is Mr. Jess T. Ford, 
Director of the International Affairs and Trade Division of the 
U.S. Government Accountability Office; Ambassador John E. 
Lange, Deputy Inspector General, U.S. Department of State; and 
Mr. Tony Edson, Acting Assistant Secretary for Visa Services, 
Bureau of Consular Affairs, U.S. Department of State; and Ms. 
Elaine Dezenski, Acting Deputy Assistant Secretary for Policy, 
Border and Transportation Security, U.S. Department of Homeland 
Security.
    Did I pronounce your name correctly?
    Ms. Dezenski. Yes, sir.
    Mr. Shays. OK. So let me provide the oath. If you would 
stand, we will administer the oath and then we will start with 
testimony.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative. And we will start with you Mr. Ford. And 
what my practice in this subcommittee is is to do 5 minutes, 
but we roll over for another 5 minutes. It's not my preference 
that you take 10, but it is my preference that you don't try to 
rush the 5 and if you go 7 or 8, whatever, we are more than 
happy.
    We invited you because we did want to hear your testimony. 
So, Mr. Ford.

STATEMENTS OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
    TRADE DIVISION; U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
   AMBASSADOR JOHN E. LANGE, DEPUTY INSPECTOR GENERAL, U.S. 
   DEPARTMENT OF STATE; TONY EDSON, ACTING DEPUTY ASSISTANT 
 SECRETARY FOR VISA SERVICES, BUREAU OF CONSULAR AFFAIRS, U.S. 
    DEPARTMENT OF STATE; AND ELAINE DEZENSKI, ACTING DEPUTY 
   ASSISTANT SECRETARY FOR POLICY, BORDER AND TRANSPORTATION 
         SECURITY, U.S. DEPARTMENT OF HOMELAND SECURITY

                   STATEMENT OF JESS T. FORD

    Mr. Ford. Thank you, Mr. Chairman. I'd like my complete 
statement included in the record.
    Mr. Shays. Absolutely.
    Mr. Ford. I'm pleased to be here today to discuss two 
recent reports on actions that have been taken by the 
Department of State and the Department of Homeland Security to 
strengthen the nonimmigrant visa process as an antiterrorism 
tool.
    All 19 of the September 11th terrorists hijackers were 
issued a visa, which is a U.S. travel document foreign citizens 
must generally obtain before entering the country temporarily 
for business, tourism, or other reasons. In deciding to approve 
or deny a visa application, the State Department consular 
officers are on the front line of defense in protecting the 
United States against potential terrorists and others whose 
entry would likely be harmful to U.S. national interests. But 
consular officers must balance this security responsibility 
against the need to facilitate legitimate travel.
    In October 2002, we reported on a number of shortcomings in 
the visa process and made several recommendations aimed at 
strengthening the role of national security in the process. The 
recommendations called for improvements in procedures for 
addressing heightened border security concerns, enhanced 
staffing, and counterterrorism training for consular officers. 
Today, I will discuss the changes that have been made since our 
2002 report to strengthen the visa process, as well as areas 
that deserve additional management attention.
    First, I will focus on our report issued today on changes 
in the visa policy and guidance consular resources, including 
staffing and training and the extent to which U.S. agencies 
share information with visa adjudicators.
    Second, I will discuss our July 2005 report on the 
placement of DHS visa security officers at U.S. embassies and 
consulates overseas.
    The State Department and DHS have taken many steps to 
strengthen the visa process as an antiterrorism tool. 
Specifically, the State Department has provided clear 
instructions to consular officers on the importance of national 
security to the visa process. At every post we visited, 
including those with special interests to antiterrorism 
efforts, the consular staff viewed security as their top 
priority, while recognizing the importance of facilitating 
legitimate travel.
    To further strengthen the visa process, the State 
Department has increased the hiring of consular officers, 
targeted recruitment of foreign language-proficient officers, 
revamped consular training with the focus on counterterrorism, 
and increased resources to combat fraud. Further, intelligence 
and law enforcement agencies have shared more information for 
consular officers' use in conducting name checks on visa 
applicants.
    Despite these improvements, we found that further actions 
are needed to enhance the process. Consular officers we 
interviewed said that guidance is needed on the interagency 
protocols regarding DHS staff roles and responsibilities 
overseas. Actions are also needed to ensure that the State 
Department has sufficient experienced staff with the necessary 
language skills at key consular posts.
    While the State Department has hired more consular 
officers, it continues to experience shortages in supervisory 
staff. As of April 30th of this year, 26 percent of midlevel 
positions were either vacant or filled by junior officers. 
Moreover, State has not prioritized the staffing of its more 
experienced officers to key posts. As an example, we found that 
the visa sections in critical posts, in Saudi Arabia and Egypt, 
were staffed with first-year, entry-level officers and no 
permanent midlevel visa chiefs to provide direct supervision 
and oversight. Our report issued today calls for further 
improvements and training in fraud prevention as well as 
information sharing with the FBI.
    The Homeland Security Act of 2002 authorized the assignment 
of DHS employees to U.S. embassies and consulates to provide 
expert advice and training to consular officers regarding visa 
security. In September 2003, DHS assigned visa security 
officers to consular posts in Saudi Arabia. DHS also plans to 
assign staff to other posts to strengthen the visa process at 
these locations.
    The visa security officers assigned to Saudi Arabia review 
all visa applications prior to a final adjudication by consular 
officers and assist consular officers with interviews and fraud 
prevention. According to senior officials in Saudi Arabia, the 
visa security officers in Riyadh and Jedda have strengthened 
the process. However, no comprehensive data exists to measure 
the performance of the visa security officers or to demonstrate 
their impact. In addition, the requirement to review all visa 
applications in Saudi Arabia limits the officers' ability to 
provide additional training and other services to consular 
officials, such as assisting with interviews and training in 
visa fraud.
    We found that DHS planned to expand the visa security 
program to five overseas posts in fiscal year 2005 and intends 
to further expand the program in future years. However, the 
expansion of the program has been delayed because embassy and 
State Department officials have raised concerns about the 
program's goals, staffing requirements, and coordination plans. 
According to DHS officials, the Department provided sufficient 
responses throughout 2004 and 2005 to address these concerns. 
However, we noted that DHS has not developed a strategic plan 
for its visa security operations in Saudi Arabia or at any of 
the expanded posts, but defines mission priorities, long-term 
goals and identifies outcomes expected at each post. We have 
made recommendations that DHS develop such a strategic plan to 
guide visa security process and to develop performance data to 
show what impact their agents are having overseas.
    Mr. Chairman, this concludes my statement. I'd be happy to 
answer any of your questions.
    Mr. Shays. Thank you, Mr. Ford.
    [Note.--The GAO report entitled, ``Border Security, 
Strengthened Visa Process Would Benefit from Improvements in 
Staffing and Information Sharing,'' may be found in 
subcommittee files.]
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T3853.001
    
    [GRAPHIC] [TIFF OMITTED] T3853.002
    
    [GRAPHIC] [TIFF OMITTED] T3853.003
    
    [GRAPHIC] [TIFF OMITTED] T3853.004
    
    [GRAPHIC] [TIFF OMITTED] T3853.005
    
    [GRAPHIC] [TIFF OMITTED] T3853.006
    
    [GRAPHIC] [TIFF OMITTED] T3853.007
    
    [GRAPHIC] [TIFF OMITTED] T3853.008
    
    [GRAPHIC] [TIFF OMITTED] T3853.009
    
    [GRAPHIC] [TIFF OMITTED] T3853.010
    
    [GRAPHIC] [TIFF OMITTED] T3853.011
    
    [GRAPHIC] [TIFF OMITTED] T3853.012
    
    [GRAPHIC] [TIFF OMITTED] T3853.013
    
    [GRAPHIC] [TIFF OMITTED] T3853.014
    
    [GRAPHIC] [TIFF OMITTED] T3853.015
    
    [GRAPHIC] [TIFF OMITTED] T3853.016
    
    [GRAPHIC] [TIFF OMITTED] T3853.017
    
    [GRAPHIC] [TIFF OMITTED] T3853.018
    
    [GRAPHIC] [TIFF OMITTED] T3853.019
    
    [GRAPHIC] [TIFF OMITTED] T3853.020
    
    [GRAPHIC] [TIFF OMITTED] T3853.021
    
    Mr. Shays. Ambassador.

             STATEMENT OF AMBASSADOR JOHN E. LANGE

    Mr. Lange. Mr. Chairman, thank you for the opportunity to 
provide the Office of Inspector General's observations about 
the Department of State's progress since 2002 in strengthening 
the visa process as an antiterrorism tool. For the sake of 
brevity, Mr. Chairman, I will today present highlights from the 
full statement that I am submitting for the record.
    Among OIG's body of work on this subject over the last 4 
years, our December 2002 report on visa issuance policy and 
procedures continues to serve as a baseline to measure the 
Department of State's progress in strengthening nonimmigrant 
operations worldwide. That report identified four areas where 
the visa process needed strengthening, including improved 
executive oversight and supervisory leadership, increased 
consular section staffing, specialized national security 
training, and the need for adequate consular workstation 
facilities for implementing new visa process requirements.
    We also have identified fraud prevention programs as a 
fifth key topic.
    Overall, in our judgment, the Department of State has made 
extensive strides in strengthening the visa process since 
September 11th, a day that profoundly changed U.S. border 
security policy. Regarding executive oversight and supervisory 
leadership, recent OIG reviews indicate that the Bureau of 
Consular Affairs has made substantial improvements in 
standardizing visa policy and procedures. Since 2002, the 
Bureau has repeatedly reinforced the consular oversight 
responsibilities of chiefs of mission and has instituted a 
mandatory annual certification of consular management controls.
    Our recent report on the visa referral process, dated March 
2005, discussed dramatic improvement in the referral system 
that is now codified, more transparent, and more accountable 
than before, with Ambassadors and deputy chiefs of mission 
clearly responsible for a mission's referral system and its 
integrity.
    On consular section staffing, this office in 2002 
identified inadequate staffing levels of consular sections as 
the single most serious impediment to effective management of 
nonimmigrant visa processing worldwide. The Department of State 
now employs a staffing model, updated every 2 years, that 
measures the increased work loads for visa officer positions 
due to ongoing changes in visa processing requirements, 
including more personal interviews, more security clearances, 
and the new fingerprinting requirement.
    Although some improvements have occurred, determining 
adequate staffing has been increasingly complex. OIG inspection 
observations would lead us to caution that a one-size-fits-all 
model does not suit the differences in the type of visa 
clientele and mix of processing requirements found in overseas 
posts. The Department has taken steps to mitigate the problem 
of assigning entry-level officers to consular sections in 
rotational positions that involve only 1 year of service in a 
consular section. And this is a matter that we continue to 
monitor in response to our recommendations from back in 2002.
    Regarding national security training, the Department of 
State has made substantial strides in training consular 
officers and has addressed requirements spelled out in the 
Enhanced Border Security and Visa Reform Act. In our 2002 
report, we recommended that the Department develop special 
analytical interview training to help identify visa applicants 
who are a potential threat to national security.
    The Foreign Service Institute's basic consular course now 
includes added emphasis on visa security, including a half-day 
program on counterterrorism at the Central Intelligence Agency. 
Over 95 percent of respondents to our survey for a report on 
standards for refusing visa applicants reported that they had 
received training in analytical interviewing techniques. OIG 
has found that many consular sections are following the 
Department's information-sharing directive and arranging with 
other mission elements to provide current region-specific 
training on law enforcement, counterterrorism, and techniques 
for detecting possible terrorist or criminal connections.
    As noted in our 2002 report, many posts had longstanding, 
inadequate consular work space and facilities. Over the past 3 
years, many urgently needed renovations for consular spaces 
were completed, using funds from a special 3-year consular 
improvement initiative. OIG continues to identify consular 
sections with urgent work space needs and believes this type of 
flexible funding is necessary to respond to rapid changes in 
nonimmigrant visa trends.
    In November 2004, OIG issued a report on visa and passport 
fraud prevention programs that lauded the Bureaus of Consular 
Affairs and Diplomatic Security for their joint initiative in 
creating 25 overseas investigative positions staffed by 
assistant regional security officers who have produced clear, 
positive results in detecting and deterring fraud and 
corruption. However, in spite of numerous communications to the 
field, some consular officers have stated that mission 
management and consular managers have not been effectively 
informed of the importance of antifraud efforts and their 
direct bearing on border security.
    In summary, it is clear from our reviews that the 
Department has made substantial improvements to address gaps 
and vulnerabilities in the visa process over the last 4 years, 
but continued progress needs to be monitored closely.
    Thank you, Mr. Chairman. I will be pleased to address your 
questions.
    Mr. Shays. Thank you very much, Ambassador.
    [The prepared statement of Mr. Lange follows:]

    [GRAPHIC] [TIFF OMITTED] T3853.022
    
    [GRAPHIC] [TIFF OMITTED] T3853.023
    
    [GRAPHIC] [TIFF OMITTED] T3853.024
    
    [GRAPHIC] [TIFF OMITTED] T3853.025
    
    [GRAPHIC] [TIFF OMITTED] T3853.026
    
    [GRAPHIC] [TIFF OMITTED] T3853.027
    
    [GRAPHIC] [TIFF OMITTED] T3853.028
    
    Mr. Shays. Mr. Edson.

                    STATEMENT OF TONY EDSON

    Mr. Edson. Mr. Chairman, thank you for the opportunity to 
discuss today's GAO report and the steps the Department of 
State has taken to strengthen the visa process.
    Mr. Shays. Your mic is on, I think. Just tap, just so I 
know.
    Yes, it's on. We have one mic that's a little softer than 
the rest.
    Mr. Edson. Thank you for having me here.
    The research and recommendations the GAO makes are vital to 
the Department's work as we move with the Department of 
Homeland Security toward our common goal of national security 
and secured prosperity. We know the goal posts are never 
stationary. There are always additional steps that we will 
take, can take, to improve visa security.
    The Department has made significant and rapid changes to 
the visa process since September 11th in an effort to push out 
our border security beyond the United States. As the report 
notes, today's consular officers understand that national 
security is job one, while they work to facilitate legitimate 
travel. In order to support that work, the Department has 
incorporated some 8.9 million records from the FBI National 
Crime Information Center into the consular lookout and support 
system name-check data base, doubling the records on file.
    We have implemented new regulations requiring near-
universal personal interviews, rolled out the new tamper-
resistant Lincoln nonimmigrant visa foil and completed 
worldwide deployment of biometric software and facial 
recognition screening, and the list of improvements goes on.
    As the GAO recognized, the Department has taken numerous 
steps to enhance consular training. For example, we have 
quadrupled the number of offerings of FSI's special course on 
fraud prevention for managers, allowing over 130 consular 
personnel to complete the course in fiscal year 2005. The 
content of the course has also been revised to incorporate 
additional material on counterterrorism and a briefing from the 
National Targeting Center.
    We agree with the GAO that we must expand this training 
further and have already begun to do so, developing a course 
specifically on countering terrorist travel. Moreover, because 
terrorist travel trends are inherently changeable and often 
country specific, we believe that additional instructions 
should center on ways to access current intelligence data. 
Therefore, as part of the basic consular course, all new 
consular officers are trained to effectively access relevant 
information from the Department and other USG agency sources on 
the SIPRNet classified Internet.
    The GAO's report cites the need for greater and more 
targeted language training, FSI or the Foreign Service 
Institute, has already developed consular-specific modules for 
most of the languages it teaches and has also expanded upon our 
post language programs.
    In light of the security concerns raised in this report, 
the Department will give careful consideration to extending the 
current time limitation on language training for entry-level 
officers assigned to critical threat countries.
    The report also recommends that State develop a 
comprehensive worldwide staffing plan. We believe we have such 
a plan, and it's being revised on an ongoing basis.
    We would be happy to brief the subcommittee in more detail 
on human resource planning activities, at your convenience. For 
now, allow me to note that the Department periodically reviews 
all consular staffing needs to ensure that workload needs are 
met around the world.
    Based on these work load reviews, which also take into 
account priorities such as assistance to American citizens, the 
Department has established over 400 new consular positions 
since fiscal year 2002. Our increased level of hiring in fiscal 
years 2002 to 2004 has since produced our largest tenured class 
to date. These 152 newly tenured generalists included 
approximately 70 consular officers now eligible to compete for 
midlevel jobs and to help address the midlevel gap frequently 
cited in the GAO report.
    An important component of interagency information sharing 
is access to complete information. This is especially true on 
the visa interviewing line where such information is directly 
relevant to fighting terrorism.
    As I mentioned previously, in early 2002 and in response to 
the Patriot Act, we worked closely with the FBI to transfer 
names from FBI data bases into the class system culminating in 
an on-line linkage of those two data bases. Since then, 
thousands of ineligible visa applicants have been denied visas 
who otherwise might have received visas had their names not 
been transferred to our lookout system.
    However, the GAO report emphasizes that consular officers 
need some additional information from FBI data bases in order 
to increase their operational efficiency and enhance national 
security. We in DHS have had fruitful discussions with FBI on 
this matter and look forward to a solution that meets our 
needs.
    Mr. Chairman, thank you for your attention. At this time, 
I'm available to answer any questions.
    Mr. Shays. Thank you very much, Mr. Edson.
    [The prepared statement of Mr. Edson follows:]

    [GRAPHIC] [TIFF OMITTED] T3853.029
    
    [GRAPHIC] [TIFF OMITTED] T3853.030
    
    [GRAPHIC] [TIFF OMITTED] T3853.031
    
    [GRAPHIC] [TIFF OMITTED] T3853.032
    
    [GRAPHIC] [TIFF OMITTED] T3853.033
    
    [GRAPHIC] [TIFF OMITTED] T3853.034
    
    Mr. Shays. Ms. Dezenski.

                  STATEMENT OF ELAINE DEZENSKI

    Ms. Dezenski. Good morning, Mr. Chairman. Thank you for the 
opportunity to appear before you this morning.
    I think, as we're all aware, developing and implementing 
effective visa policy is complex and very difficult work, and 
it is so because we strive to achieve a balance so that the 
visa system cannot be exploited by those who wish us harm, 
while it also provides, or should provide, an open and inviting 
system that encourages and facilitates legitimate visitors to 
the United States.
    DHS oversight of the visa issuance process is the first 
component of a layered security approach. We realize that this 
process must continually be reviewed, refined, and improved; 
and we appreciate the work of our partners at the State 
Department and the work that both GAO and our own OIG have done 
to help us make our programs as effective as possible.
    Meeting our legislative mandate under section 428 of the 
Homeland Security Act requires us to focus on several critical 
areas involving visa policy oversight. This morning, I'd like 
to talk about three of those areas: first, our visa security 
officer presence and effectiveness; second, training for 
consular officers; and finally, ensuring that the visa issuance 
process supports our Secure Borders, Open Doors vision.
    The deployment of VSOs, or visa security officers, to high-
threat areas of the world is top priority. In support of 
congressional mandates, the Department has established two visa 
security operations in Saudi Arabia, which have made the visa 
issuance process in that country more secure. In the first 9 
months of this fiscal year, VSOs reviewed 24,000 visa 
applications is Saudi Arabia. This additional scrutiny has 
prevented ineligible applicants from receiving visas, helped to 
identify new threats and fraud trends, generated new watch list 
entries and led to the initiation of domestic investigations. 
Per GAO recommendation, we are currently creating a data base 
to establish a baseline of these types of VSO contributions 
that will help better quantify our success and our performance 
measures.
    Even as we are reviewing 100 percent of visa applications, 
we have not seen a negative impact on visa processing times. In 
fact, for the time period covering 2003 to 2004, State reported 
an improvement in processing times at these locations.
    VSOs have also instituted a prescreening process that 
allows consular officers and VSOs to more effectively focus 
applicant interviews on areas of interest and concern.
    Finally, VSOs work closely with consular officers during 
the adjudication process to closely scrutinize applications, 
clarify immigration law, review suspect documents, and to 
clarify or interpret derogatory information the consular 
officer may encounter from a data base check. Our VSOs come 
into the job with an average of 15 years of law enforcement and 
related experience, and that can be very beneficial to consular 
officers who may be relatively new to their duties.
    GAO's most recent report on visa security process 
identifies the need to put the right people in the right place 
with the right skills. We fully endorse this assessment. We are 
confident that the Department's plans for expansion of the VSO 
program addresses the critical human resource needs identified 
in the report.
    In order to facilitate deployment of VSOs to new 
consulates, both DHS and State will need to increase efforts to 
educate the embassies on the role of VSOs at the post. We 
concur with GAO's recommendation that the Department develop 
additional guidance on the relationship between DHS and State 
in the visa process and this effort has already begun. We are 
moving ahead with the deployment of VSOs to five additional 
high-threat locations beginning next month.
    We appreciate State Department's support of these efforts. 
GAO also made specific recommendations to further integrate and 
share law enforcement information. While most of the reports' 
recommendations refer to the need for data base improvements, 
the VSOs themselves are an important link in the information-
sharing process. Automated systems cannot substitute for human 
law enforcement expertise.
    By expanding the Department's presence in consulates, we 
can facilitate the consular officer's access to information and 
law enforcement analysis critical to their adjudication 
process. For example, in Saudi Arabia, the VSOs provide up-to-
date information on newly identified document vulnerabilities 
directly to consular officers, such as the types of counterfeit 
documents that have recently been seized at U.S. ports of 
entry.
    Now I'd like to talk a little bit about training. DHS has a 
statutory obligation to provide training to improve the 
security of the visa process. This is a critical function that 
is important not only for the consular officers already at 
post, but also during the basic consular training taking place 
stateside. VSOs conduct training sessions for consular officers 
on topics ranging from port of entry procedures, admissibility, 
fingerprinting, fraudulent document detection, interview 
techniques and immigration and national security law.
    We have also reviewed the basic consular officer training 
at the Foreign Service Institute, and we are working with State 
to identify and develop additional homeland security modules. 
VSO officials conduct classes on the visa security program 
during consular officer basic training, and we have 
participated in two Department of State regional conferences 
and have participated with State in their consular management 
assistance team visits to various posts. We believe that the 
positive training environment developed at the two consulates 
in Saudi Arabia will be a model for VSOs deployed to new posts.
    Training is but one area where we feel VSOs can offer a 
significant value add. In fact, by allowing for some 
flexibility in terms of how we review applications and at what 
volume we review, as suggested by GAO, our VSOs could spend 
additional time on training and other value-added oversight 
capabilities.
    Finally, DHS and State have made a tremendous effort to 
combat the perception that security measures implemented to 
strengthen the visa process have made it too difficult for 
legitimate travelers to come to the United States. We've talked 
extensively with business organizations, educational 
institutions and the scientific community, and one of the 
issues consistently raised by these groups was the lengthy 
timeframe for visa processing, often due to the need for 
additional security checks on certain travelers. Based on this 
feedback, we have worked with our interagency counterparts to 
identify areas of the visa issuance process, such as the 
security advisory opinion [SAO] process, where we can implement 
more efficient and effective procedures.
    One example of the type of efficiencies we have identified 
is the validity of certain SAO clearances where we have 
extended the validity period for students, certain types of 
temporary workers and certain types of business visas. This 
change is a significant improvement of the previous requirement 
of a new SAO clearance for each individual trip.
    In making this change, DHS and State carefully reviewed the 
existing process and set strict limitations on when the 
extended clearances apply. In this instance, we were able to 
fine-tune the process to better facilitate travel while 
maintaining security. We continue to work with State to 
identify other areas where we can achieve similar results.
    Visa security is an integral part of the overall border 
management system. It impacts the security of our citizens, our 
visitors, affects billions of dollars in trade and travel, and 
helps define relations with our international partners. We 
simply can't afford to get it wrong.
    I want to thank the subcommittee for the support, and I 
look forward to working in partnership with the State 
Department and members of the committee on this complex and 
critical homeland security task. Thank you.
    [The prepared statement of Ms. Dezenski follows:]

    [GRAPHIC] [TIFF OMITTED] T3853.035
    
    [GRAPHIC] [TIFF OMITTED] T3853.036
    
    [GRAPHIC] [TIFF OMITTED] T3853.037
    
    [GRAPHIC] [TIFF OMITTED] T3853.038
    
    [GRAPHIC] [TIFF OMITTED] T3853.039
    
    [GRAPHIC] [TIFF OMITTED] T3853.040
    
    [GRAPHIC] [TIFF OMITTED] T3853.041
    
    [GRAPHIC] [TIFF OMITTED] T3853.042
    
    [GRAPHIC] [TIFF OMITTED] T3853.043
    
    [GRAPHIC] [TIFF OMITTED] T3853.044
    
    Mr. Shays. I thank you very much.
    You had a nice way of describing really what our task is. I 
mean, this is the GAO, the Inspector General, Congress, working 
with DHS and the Department of State to make the system work 
better.
    I think for the most part, the system is working better 
both for GAO and Inspector General; but we are going to kind of 
get underneath and just have a better sense of it.
    But I wanted to start out--and, Mr. Edson, I guess you 
would be the person to do it; I want you to tell me. We 
basically have an immigrant process and we have a nonimmigrant 
process, tourist, student visas and business folks coming in 
and out and probably just a whole host of others as well.
    But am I correct in thinking as immigrant and nonimmigrant?
    Mr. Edson. Yes.
    Mr. Shays. OK. Walk me through what used to happen before 
September 11th, before DHS, before we put this focus on how did 
19, 20 people, who were not U.S. citizens, end up getting into 
the United States and so on. So walk me through first the 
nonimmigrant, either way, immigrant or nonimmigrant.
    And then I want you to tell me what it was and what it is 
today or what we want it to be today. I'm trying to set the 
stage here.
    Mr. Edson. At a fairly high level perhaps?
    Mr. Shays. Yes. In other words, what was it before 
September 11th? How did the system work?
    Mr. Edson. Immigrants--actually, the system's been pretty 
standardized since the late 1990's with the deployment of a 
uniform automation platform for us overseas. So beginning at 
about that time, a nonimmigrant applying for a tourist or 
student visa would submit an application, a printed 
application, a single-page form, back and front, with a 
photograph attached and the passport.
    A large percentage of those cases were submitted without 
personal appearance required. People would submit them through 
a, what we call the ``drop box.'' It might be something as 
simple as a wooden box with a slot in it in front of the 
embassy, or through a travel agent, through a school 
educational group. The applications would then be reviewed.
    Some people were interviewed; depending on local 
conditions, threat and fraud indicators, many were not. The 
application was reviewed by our local staff for completeness, 
then a visa record created in our system. That would kick off a 
name check automatically. Based on the results of the name 
check and a review of the application, an officer would then 
approve or deny the case.
    Denials only took place in person. You'd have to come in in 
person for an interview for a denial. But either through an 
interview, or without, the case would be approved or denied, 
and then subsequently issued, and the issued foil placed in the 
passport and given back to the applicant.
    Mr. Shays. But when you checked names with the record 
thing, what was the significance of that? Because you didn't 
really have anything to match the names with, did you?
    Mr. Edson. Yes.
    Mr. Shays. What did you have?
    Mr. Edson. Even before September 11th, the consular lookout 
and support system had several million records, including the 
terrorist lookout records that subsequently became the core of 
the data base managed today by the National Counterterrorism 
Center. So we had that.
    We did not have FBI data at that time. We had enforcement 
data, most of the law enforcement data from DHS.
    Mr. Shays. So the FBI data would be basically a criminal 
record?
    Mr. Edson. Criminal records we did not have at that time.
    Mr. Shays. Basically, if you were a nonimmigrant, you could 
pretty much come into the United States either as a tourist, a 
student, or a business? And are there a lot of other 
nonimmigrants? I mean, is it countless or are those the big 
three?
    Mr. Edson. Those are the big three. There are varieties of 
working classes.
    Mr. Shays. So you could basically come into the United 
States without ever having to be interviewed, without ever 
making a personal appearance?
    Mr. Edson. Right.
    Mr. Shays. And if you were to deny someone, they were given 
basically the right to have an interview. You would not deny 
someone without at least giving them an interview?
    Mr. Edson. Correct, to make sure that we were making the 
correct decision.
    Mr. Shays. OK. And that's with nonimmigrant.
    Now, that was in the past. What was it with immigrant 
status?
    Mr. Edson. Immigrant status has always required--it's a 
much more regular, drawn-out process that begins with CIS in 
most cases, the Citizens and Immigration Services at DHS, for 
petition.
    Mr. Shays. They weren't DHS then, so----
    Mr. Edson. For INS. And it began with INS at the time.
    A petition that is filed, most cases will go through our 
National Visa Center in New Hampshire, where we do sort of 
value-added clerical support for the overseas posts, some of 
the early correspondence with the outposts.
    Mr. Shays. That covers the entire United States?
    Mr. Edson. For us it covers the entire world. And when the 
case was ready for interview, it would be sent overseas to our 
consular sections where 100 percent of immigrants were 
interviewed. And then the visa process to conclusion, if they 
were eligible, we did the same sorts of name checks. Immigrants 
have always--well, for the past several years, in any event, 
immigrants have been checked against NCIC.
    Mr. Shays. I don't want to do since September 11th yet. 
Before then.
    Mr. Edson. Before then, they were being checked, I just 
don't remember when in the 1990's that began. But we checked 
immigrants against the FBI records for criminal records.
    So we had that check done, and the case then would be 
processed to conclusion overseas, again always with a personal 
interview with an immigrant case.
    Mr. Shays. OK. So the process involved an interview, right, 
for an immigrant?
    Now describe to me what's different about both nonimmigrant 
today, versus what it was--you described what it was--and then 
the immigrant.
    Mr. Edson. For nonimmigrants, the differences are stark. 
Obviously, in addition to that flow that I described before, 
the most significant changes are regulatory changes that we 
made in August 2003 to require personal appearance from nearly 
all applicants. Those changes were enacted in legislation in 
December 2004. So nearly every applicant is now coming in for a 
personal interview.
    We expanded the special screening procedures, the screening 
that only a small percentage of applicants go through, but it's 
a targeted class, targeted demographics identified by law 
enforcement or intelligence.
    The data in the matrix----
    Mr. Shays. I'm sorry. I had my Blackberry on, and that's 
why we're getting the feedback evidently.
    I'm one step behind again, so I'm going to ask you to start 
over. I apologize. I want you to start over again.
    Mr. Edson. Oh, sure.
    The biggest changes, post-September 11th have been in the 
nonimmigrant process which, as you could tell, was slightly 
less formal than the immigrant process before September 11th. 
Beginning in August 2003, we published a regulation requiring 
additional interviews, a much higher percentage of these 
applicants to be interviewed. That same regulation was 
essentially enacted into statute in December 2004. There are 
very few opportunities for waiver of personal appearance now 
for nonimmigrants.
    Mr. Shays. So basically the rule is, you interview?
    Mr. Edson. Right.
    Mr. Shays. And that, if you don't interview, there has to 
be an exception?
    Mr. Edson. An exception in the statute.
    Mr. Shays. OK. So that is one big difference?
    Mr. Edson. That's one big difference. Fingerprinting is a 
major difference. We're now collecting the two index finger 
scans from all applicants for whom that's required. We're using 
the same standard that U.S. Visit uses at the port of entry, so 
the very young, the very old and the diplomats are not scanned. 
That is a second big difference.
    Those fingerprints, not only are we collecting the 
biometric information, but we're running it against the IDENT 
biometric data base maintained by DHS that includes significant 
amounts of FBI information. So we're catching people, 
imposters, criminals daily. Large numbers of people are being 
caught that wouldn't have been caught before because of the 
printing.
    We have changed the way in which work is processed in our 
sections so that local employees, host nationals, host country 
nationals or locally engaged American personnel, say, spouses 
of Foreign Service officers, they are actually allowed to do 
far less today than they were before September 11th. We've 
taken them out of anything having to do with the name check, 
for example. They have very limited involvement in the 
biometric system. Just as a security measure, we added that in.
    We expanded the special targeted screening, which doesn't 
apply to a large number of applicants, but some applicants are 
subject to additional screening based on demographics 
identified by law enforcement and intelligence communities. 
That body of people has actually expanded. So we are screening 
more people that way, and we share more information.
    The name check system that's behind all this has more than 
doubled in size since September 11th, most significantly with 
the inclusion of the FBI data.
    Mr. Shays. Now the FBI data this committee added to the DHS 
bill, but the data is somewhat vague.
    Mr. Edson. The data is incomplete. The Department of 
Justice, in their comments on the GAO report, did a nice job of 
summarizing some of the issues involved. Basically, they're 
managing a biometric data base that we are trying to access on 
a name-retrievable basis. What we get back is very limited 
biographic information from NCIII. Much of the information in 
that data base has no direct bearing on eligibility for a visa, 
things like traffic violations or----
    Mr. Shays. But are you able to distinguish between them?
    Mr. Edson. We are not able to distinguish based on a name 
check return. We need to submit a 10-print set to the FBI and 
get the criminal record in order to distinguish what's 
important and what isn't.
    Mr. Shays. Basically, what you want is the criminal record?
    Mr. Edson. Or enough of the criminal record that we can 
determine whether or not it's germane to visa adjudication.
    Mr. Shays. And this has happened for a while. And the 
argument for this process working this way is what? Why would 
we not streamline this?
    Mr. Edson. A couple of arguments. The Patriot Act actually 
requires that we submit 10 prints to access this data.
    I gather that other legislation that governs how criminal 
data is managed in the United States has similar impact; and 
then I have been told that the FBI indicates that the way the 
data base is structured makes it a little difficult to extract 
some of the information, like charge and disposition.
    Mr. Shays. The bottom line, though, each one of these 
individuals is not an American citizen?
    Mr. Edson. Correct.
    Mr. Shays. I mean, so we are really asking about the 
criminal records of someone who is overseas?
    Mr. Edson. Correct.
    Mr. Shays. And we are trying to protect their privacy 
rights?
    Ms. Dezenski, basically you're doing what INS was doing, 
correct, as a general rule, at DHS?
    Ms. Dezenski. Within the Border and Transportation 
directorate most of our focus is on the nonimmigrant process. 
CIS and shipment services handles most of the immigrant work. 
But, yes, we have the former INS function.
    Mr. Shays. OK. Well, let me ask you this.
    Of the people that existed before in some other named 
agency, what are they doing differently today than they did 
before September 11th? Forget where they're located, but INS is 
basically under your jurisdiction, correct?
    Ms. Dezenski. Correct.
    Mr. Shays. What do they do differently now than they did 
before?
    Ms. Dezenski. I think we can probably point to a couple of 
major process changes. I'm not as familiar on the immigrant 
side, but I can tell you, for example, that there's increased 
access to certain types of data bases for the immigrant review 
process. That's a by-product, I think, of the work that we've 
done through U.S. Visit and their ability to integrate numerous 
data bases across the Department that have both biographic and 
biometric information. So not only does that help us at the 
port of entry, but it also can be used in terms of the case 
management process with NCIS. So I think that is one good 
example.
    If you look more closely at the nonimmigrant side of what 
we do, you know, we can point to everything from the 
implementation of U.S. Visit entry and, now, exit processing to 
greater information sharing with the FBI.
    Tony alluded to the work that we are doing with our IDENT 
and FBI's IAFIS data bases, to bring those two biometric 
resources together so we have more information available at our 
ports of entry and at consular posts. We're moving toward the 
10-print standard so that as people are coming into the 
country, we are not going to be taking two prints; we're going 
to be moving toward 10-print. That also applies ultimately to 
the visa issuance process as well.
    So we can point to numerous activities that we have 
undertaken to strengthen the system and a lot of these broader 
moves that we have made on information sharing and data 
integration and management have spillover effects for both the 
immigrant and the nonimmigrant side of what we do.
    Mr. Shays. Thank you.
    Mr. Van Hollen has joined us and I can yield to him or I 
can just proceed with some questions to Mr. Lange. But before 
recognizing him, I would ask unanimous consent that all members 
of the subcommittee be permitted to place an opening statement 
in the record and that the record remain open for 3 days for 
that purpose. And without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
And without objection, so ordered.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I want to thank Chairman Shays for conducting these 
hearings and thank all the witnesses for being here this 
morning. As you all said in your testimony, we have an obvious, 
important mission within the immigration's nonimmigrant visa 
system to make sure, No. 1, that we protect our security, but 
also to make sure that we don't stymie unnecessarily the 
ability of legitimate visitors that come to the United States.
    And there was a period of time where I think that became a 
very serious issue, where our system was resulting in many 
legitimate visitors not coming here. I think that continues to 
be an issue, but I'm pleased with the progress that we've made.
    I have heard a lot of complaints--I think, legitimate 
complaints--from those in the area of higher education, 
scientists, of the delay and that, of course, has an impact on 
our economy here and our ability to move forward in many areas 
of research. Obviously, within the business community, there 
were lots of complaints from legitimate business travelers. So 
I want to thank you for the progress that's been made in that 
area.
    I look forward to working with you, especially if you could 
pass along, Mr. Edson, my thanks to Assistant Secretary Maura 
Harty for her efforts in that area because I think she's been 
working very diligently for all of us.
    Let me just ask a couple of questions about the visa 
security officers, if I could, because one question--I'm 
looking at the GAO report and maybe I should start with you, 
Mr. Ford. To what extent do you believe the visa security 
officers are really providing value added to our consular 
officers? In other words, is there duplication? Are some of the 
tasks that are being performed by visa security officers tasks 
that can be performed by consular officers if we gave them 
additional training, and would that be a better approach to 
providing for our security than having another layer?
    I don't have a position on this issue. I'm really looking 
to you, as someone who's taken an independent look at it, for 
your advice.
    Mr. Ford. Yes, sure.
    I think it's difficult to answer that question at this 
point because so far they've only been assigned to two overseas 
posts in Saudi Arabia, so the amount of information that's 
available about the value added of those positions is somewhat 
limited.
    Clearly, we visited Saudi Arabia in the course of doing our 
work. We met with all the visa security officers there. We met 
with all the senior embassy officials. I think the general 
sense of everyone we talked to there was that they were, in 
fact, bringing some value added to the process.
    We noted at the time of our visit that the State Department 
consular officers assigned there were largely junior people, so 
having an experienced law enforcement individual there actually 
helped them get their job done.
    But I can't generalize, based on one post, whether or not 
the overall effort is going to be value added or not. That is 
one of the reasons we recommended that the Department of 
Homeland Security, as they expand this program, provide more 
data on exactly what the value added is for these individuals, 
so that one can make a judgment as to whether or not, in fact, 
it's duplicating what consular officers are already doing, or 
whether they're providing some additional law enforcement 
training and expertise that right now we may not have in these 
posts.
    So I'd say at this point in time, it's an open issue as to 
whether or not this program is going to be value added or not.
    Mr. Van Hollen. Thank you.
    If I could have some reaction from representatives of State 
Department and Homeland Security, I'd appreciate it.
    Ms. Dezenski. Thank you.
    Well, I think we feel very strongly within the Department 
that the visa security oversight and officer program needs to 
move forward with the additional deployments and that there's 
real value added to the process. I think we need to be sure 
that we're not comparing apples to oranges.
    The role of the consular officer, and Tony can speak to it 
better than I can, but it's primarily focused on visa 
adjudication, application review, specific skills inherent in 
the State Department process. We envision, and I think the way 
it's working in practice in Saudi Arabia, that the VSO role is 
slightly different. There is a review process of the visa 
application, and that is very important; but we also bring 
analysis of law enforcement information. We do reviews of 
trends, for example; and the types of information that we're 
seeing, we'd like to have our officers play a more regional 
role so that we can share information and gather trends across 
a region as opposed to just simply focusing on a particular 
country.
    We play an important role in training, whether it's working 
with the consular officers or even going out into the local 
community. For example, we worked with airlines in Saudi Arabia 
where we have been able to help them identify certain types of 
fraudulent documents.
    So I think the way to look at it is a different type of 
value add in that both of these functions are critical to 
making the process work. What we hope is that we can move 
forward with the deployments to the five additional areas that 
we've identified, recognizing that we need to work on the 
performance metrics so we have a better process for reporting 
back to you and that we get the strategic plan in place. 
However, we hope that we're not held up because of not having 
that plan completed.
    Mr. Van Hollen. Thank you.
    Mr. Edson. We certainly agree with our DHS colleagues, with 
everything that Elaine said. The two functions are and ought to 
be different; and we've worked very closely and will continue 
to work very closely with DHS as that strategic plan is framed 
to ensure that we're not doing the same work, that there's 
genuine value added on both sides for all the activities that 
we undertake.
    Mr. Van Hollen. Well, let me ask you this. I mean, we 
obviously have the visa security officers in one post right 
now, Saudi Arabia, a plan to expand to five. We have hundreds 
of embassies around the world, and it would seem to me that 
where we have consular officers on the front line, I would hope 
that this additional training in security areas and being able 
to detect fraudulent documents and all that kind of thing is 
now being incorporated into the training of the consular 
officers.
    Has there been a change since September 11th with respect 
to that kind of training for consular officers? And why isn't 
it better to make sure that everybody going through the 
process, all the consular officers, are getting some of this 
more specialized training so that they can make the kind of 
assessments and analysis that the DHS folks are doing?
    Mr. Edson. Certainly, there have been significant changes 
in the training since September 11th. We added 3 or 4 days to 
the basic training course for consular officers to include 2 
days of analytical interviewing techniques and some significant 
time spent on fraudulent document identification and 
counterterrorism, briefings from other agencies.
    In addition, we have quadrupled the number of offerings of 
our fraud managers course so that we were able to put 130 
officers through that course last fiscal year.
    We have expanded an effort to get more local access; in the 
field access to intelligence information, we have expanded 
training on the classified Internet resources that we use to 
access intel. So we are taking both approaches. We are trying 
to make sure that our officers are as prepared as possible to 
deal with counterterrorism threats and fraudulent documents and 
fraud in general, while working with DHS to frame a role for 
the visa security officers that is complementary and does the 
best it can to secure the visa process.
    Mr. Van Hollen. OK. I just was a little concerned when you 
talked about having these totally separate functions with no 
overlap. I understand where you have both individuals there; 
that is important. Let's face it, the bulk of our consular 
officers are right now in stations around the world that have 
no visa security officer, and I think it's essential that they 
have that training so that there is a first line of defense.
    Let me ask you about the visa waiver program. I don't know 
how many countries--there are European countries where we have 
an arrangement whereby, if you come from one of those 
countries, you don't require a visa; is that right?
    Mr. Edson. Twenty-seven.
    Mr. Van Hollen. OK, 27 countries. And so what is required 
from those countries? Show a passport? What do you need to 
show?
    Ms. Dezenski. Yes, the requirement is to have a valid 
passport. And as you may be aware, we have actually implemented 
some new requirements in terms of what those passports need to 
encompass, a digital photo integrated into the data page as of 
October 26, 2005. In addition, we have specific statutory 
requirements that countries must follow to be part of the VWP. 
For example, they have to have a relatively low visa refusal 
rate. They have to have a low overstay rate, so we know that 
folks from that country aren't illegally remaining. And there 
are a couple of other criteria in that statute.
    So it's a combination of those statutory requirements, plus 
some of the new things that we require on the biometric 
passport and some refined requirements in terms of obtaining 
information on lost and stolen passports, so that we have a 
better handle on fraudulent documents coming in.
    Mr. Van Hollen. OK. I don't have a solution to this issue, 
but ultimately, I mean, it's fair to say, isn't it, that we are 
relying on the ability of the foreign governments of these 27--
I mean the governments of these 27 countries to police the 
validity of these documents?
    Ms. Dezenski. We do require that they have certain 
standards for the documents. Yes, we do rely on them for the 
issuance of them. As VWP travelers come into the United States, 
they are still subject to U.S. Visit requirements, so we are 
taking their fingerprints and running their information against 
our data bases, which also happens when someone comes in with a 
visa. So there are additional measures in place at the port of 
entry so it is not as if these folks are just waved in with a 
passport.
    Mr. Van Hollen. Right. I guess what I'm suggesting is, as 
we commit lots of resources to making sure our consular 
officers are trained, or our visa security officers in those 
posts where people are issuing nonimmigrant visas, it's 
obviously essential that we make sure that we're confident that 
the documents being provided by those 27 countries that have 
waiver programs are not easily subject to forgery. Because it 
seems to me that if you're looking for a way to illegally enter 
the United States, and you believe the line of defense of the 
consular officers and the visa security officers is working 
pretty well, you're obviously going to be looking for another 
way in. And what exactly are we doing?
    We have the standards, I understand. Do we go beyond that 
in terms of trying to determine the extent to which these 
governments are protecting against forged documents, and 
illegal?
    Ms. Dezenski. Yes, absolutely. This has been a critical 
issue. In fact, we've had a lot of congressional interest over 
the past 6 to 8 months in terms of biometrics with foreign 
passports coming from VWP countries. And we've stated to those 
countries that not only do you need to meet the statutory 
requirements, but your passports need to encompass certain 
types of security features. One, of course, is a digital photo 
integrated into the page so you don't have a problem of 
tampering with the passport. Sometimes you can lift the top 
piece and take out the photo and put in a new photo. Very 
difficult to do when the digital photo is embedded in the 
document.
    Second, we're moving toward linking in a biometric chip to 
the passport so that the digital photo will actually be stored 
in the chip along with the biographic information in the 
passport. So when VWP passport holders come into the United 
States and the requirement is fully in place, we'll be checking 
that biometric information based on the chip in the passport.
    Mr. Van Hollen. Just realistically, what's the timeframe 
for that technology to be implemented?
    Ms. Dezenski. The digital photo requirement, which most 
countries are already meeting, will come into full effect 
October 26, 2005, so next month. And the requirement for the 
biometric chip follows 1 year later, and that will be required 
of all new passports issued after that date. So it will take 
some time to implement that.
    Mr. Van Hollen. OK, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much. Let me, before going to 
you, Mr. Ford, and Mr. Lange, I have a little suspicion when my 
staff tells me how to pronounce names. They do it phonetically 
for me and the last two times they had it wrong, so they have 
credibility only in that area with me.
    I would like to add a clearer picture about both the VSOs 
and the waiver. What I am not clear about the VSOs is that I 
felt it was Congress' intent that we would have a number of 
them in a variety of countries.
    Was that your understanding of what Congress wanted?
    Ms. Dezenski. Yes, it was.
    Mr. Shays. And we have how many so far?
    Ms. Dezenski. We have--well, there are two congressionally 
mandated locations in Saudi Arabia. So we met that requirement. 
And then we immediately started developing----
    Mr. Shays. Just answer the question. How many do we have 
elsewhere?
    Ms. Dezenski. We just have the two.
    Mr. Shays. And how long has that been since the 
requirement, how much----
    Ms. Dezenski. 2003.
    Mr. Shays. That is pathetic, frankly. And there has to be a 
reason, and I want to know the reason. Is it because you have 
requested to have VSOs in other countries and State has said 
no, or you haven't even made the request?
    Ms. Dezenski. We have identified five additional locations 
where----
    Mr. Shays. Just answer my question first.
    The question is, have you--is it because you haven't made 
the requests yet or is it because the requests were made and 
State turned it down? And then you can tell me anything else 
after you answer my question.
    Ms. Dezenski. I don't think it is as simple as saying it is 
State because State denied our request.
    Mr. Shays. Start over again, take each question. Did you 
make a request to State to have VSO officers in other 
countries?
    Ms. Dezenski. Yes, we did.
    Mr. Shays. Don't hide things from us. You know, the issue I 
am having with this administration is that loyalty seems almost 
more important than the truth, that we don't get straight 
answers. And we didn't get straight answers for what we needed 
down in Louisiana. So straight answers matter to me. Answer my 
question and then give me spin.
    The question is have you requested to have VSO officers in 
any other country?
    Ms. Dezenski. Yes, we have.
    Mr. Shays. What countries?
    Ms. Dezenski. That is actually law enforcement sensitive 
information.
    Mr. Shays. How many countries?
    Ms. Dezenski. Five countries.
    Mr. Shays. So you have requested in five countries. When 
did you make the request? Last week or a year ago?
    Ms. Dezenski. The requests are made starting in 2003.
    Mr. Shays. So they were made in 2003. State Department has 
so far not agreed to the VSO officers in these countries, is 
that correct?
    Ms. Dezenski. Some of the NSDDs have been approved. I 
actually have a timeline.
    Mr. Shays. Mr. Edson, why has State Department not 
responded positively to these five requests?
    Mr. Edson. The requests were submitted under the National 
Security Decision Directive 38 procedures that charged our 
chief of commission, our Ambassadors to balance security--the 
needs of the Homeland Security Act to post Visa Security 
Officers overseas and other directives to right size the U.S. 
presence abroad.
    That discussion with DHS is something we have been actively 
involved in since 2003, when the requests were submitted, and 
that discussion is going forward. In some cases, the requests 
were approved and the positions are----
    Mr. Shays. Isn't it true that State Department originally 
opposed having VSOs in countries?
    Mr. Edson. Not that I am aware of, no.
    Mr. Shays. Did they request that there be VSOs in 
countries? Did we make the requests when we were working in 
that station? And if you don't know, you don't know.
    Mr. Edson. I am not aware that we positively requested 
them. We have worked close with DHS on every request----
    Mr. Shays. My sense is this has been a initiative of 
Congress that we have wanted the VSOs. Maybe, Mr. Ford, Mr. 
Lange, you can help me out here. Do either of you know? The 
question is, it was my sense that we were not happy with the 
job State Department was doing. I think I even got a call from 
the Secretary of State about some of what we wanted to have 
happen, and we were looking--there were amendments in this 
committee about taking away some authority from State. And I 
think the VSOs were the compromise, that State would still do 
much of this but we would have--we had people totally focused 
on security from DHS working within State Department. That is 
my understanding. I mean Mr. Ford, Mr. Lange, can you confirm 
it, not confirm it? You look like you're praying, Mr. Ford.
    Mr. Ford. Well, I can confirm that is what Congress wanted. 
I think based on what we know about why there was a delay is 
that the Department of Homeland Security and the individual 
embassies that were being considered had some disagreements 
about what exactly the role of these officers would be. And as 
Congressman Van Hollen mentioned earlier, that was apparently 
unclear to many of the Ambassadors about what exactly the role 
of the VSOs was going to go overseas and it took a while for 
clarity to come to the fore before they would approve these 
positions.
    My understanding is the five posts that they planned to 
expand, I think all but one of them have now been approved. So, 
four out of five----
    Mr. Shays. Why would that be an issue that we couldn't have 
an open conversation about? Just offhand? Tell me why. Without 
telling what me what the discussions are, tell me why. You 
know, we have had hearings about why we classify things so that 
no one sees them practically except a few people see the 
document. Just tell me why we can't as Members of Congress in 
open forum have a logical conversation about where these five 
stations would be? What is the reason why we can't have a 
discussion about that? Can someone tell me that? Why don't we 
start with State? Tell me why we can't have a discussion. And 
then DHS tell me why. What is the logic?
    Mr. Edson. I think we certainly, DHS colleagues have 
determined that the locations, specific locations, need to be 
treated sensitively.
    Mr. Shays. Just think about why. They needed to be treated 
sensitively because of what? Why?
    Mr. Edson. I would have to defer to DHS.
    Mr. Shays. Defer to DHS. And if you don't know, you don't 
have to give me an answer. If you don't know, you don't know.
    Ms. Dezenski. I think there are a couple things going on. 
The first thing is that the role of the VSO effort is to expand 
the footprint of the Department of Homeland Security and to 
expand our ability to oversee the process. The NSDD 38 process 
is obviously a legacy process. And in that process one of the 
goals for, and Tony will correct me if I am wrong, is to ensure 
that we are not expanding our footprint, or State isn't 
expanding its footprint overly to a size that they can't 
accommodate. So there is some inherent conflict between the two 
efforts, and somehow we have to get these processes to work in 
a more expedited fashion because the objectives of the two 
processes are not always in sync. So that is the first thing.
    Mr. Shays. Let me ask you, once the VSO is in a foreign 
country, will it be known that they are in that foreign 
country?
    Ms. Dezenski. It will certainly be known by----
    Mr. Shays. Are VSOs like CIA agents, that we are not 
supposed to let people know who they are, and so on? Maybe I 
don't have an understanding of what the classification of VSO 
officers are.
    Ms. Dezenski. My understanding is that they are law 
enforcement classification. We have treated the locations as 
law enforcement sensitive information. So we have not been 
public about how many people we have deployed and to what 
location other than congressionally mandated locations.
    Mr. Shays. So the answer to the question is like other law 
enforcement, we don't disclose where law enforcement officials 
are in various countries?
    Ms. Dezenski. Yes. We are not going to put out a press 
release, for example, that we are sending five people next 
month to country X.
    Mr. Shays. When they are in country, are they treated as 
State Department employees or DHS employees? When they go to 
cocktails, what do you do? I work for the State Department, 
what is your job?
    Ms. Dezenski. No. I don't think they have to say I could 
tell you but I would have to shoot you. I think they are known 
in country in terms of their role.
    I mentioned, for example, that we have officers that have 
worked with local airlines in Saudi Arabia, so it is not as if 
they are working under cover. But we are not public about how 
we identify high threat locations and how many people we put on 
the job to, you know----
    Mr. Shays. Let me----
    Ms. Dezenski [continuing]. For those functions.
    Mr. Shays. Let me back up a second. I was going to ask Mr. 
Ford what is the best thing, and Mr. Lange, what is the best 
thing that is happening and the worst thing with immigration, 
nonimmigrants and immigrants? What is State doing best? What 
are they doing worst? What is DHS doing best? What are they 
doing worst?
    I am not even to that level yet. Where I am at right now is 
I came to this hearing listening to four very nice 
presentations thinking, you know, we in Congress need to be 
fair. The Inspector General needs to be fair. GAO needs to be 
fair, you know, they are making good progress, and GAO and 
Inspector Generals, their job is not to be ``I gotcha'' nor is 
it my job to be ``I gotcha,'' or Mr. Van Hollen's. But I will 
tell you the uneasiness I have right now, and maybe you can 
sort it out. What I have is basically that we have to kind of 
give the party line that DHS doesn't want to offend State. 
State doesn't want to offend DHS. That is kind of what I am 
getting a feeling, that it was clear as one of the lines of 
questions that the VSOs were--they have said there is no clear 
plan on how many you want, no time lines, I guess kind of the 
impression that we were getting. And then I start to hear these 
kind of wobbly answers to what to me are fairly logical 
questions for us to ask. That is where I am now. So I have gone 
from a level of feeling kind of good about things to thinking, 
you know, if we peel away the onion, I don't like what I am 
seeing.
    And just to continue just briefly, the VSO officers were 
the compromise, I believe, that Congress wanted. Now if they 
aren't needed, if their job isn't defined, then let's have this 
debate and let's have an honest dialog from State. We don't 
want them, they are not needed, they basically don't interview 
anybody, they are just there. It is a waste. And we have too 
many different departments in State as it is. That part I agree 
with. We have, you know, sometimes 70-plus people who have 
nothing to do with State in our State Department.
    But then let us know and then, you know, let's get rid of 
the law. It is pathetic to only have in two countries, and 
there is something wrong about it. And I don't know what it is. 
But I want an answer to it. If State is dragging their feet, I 
want to know that. If it is VSOs that aren't needed, then let's 
forget the charade about even having them there.
    So let me ask you this. Tell me why we need these VSOs. I 
will start with State. And if you don't think we need them, 
just say I don't think we need them. I don't think you're going 
to lose your job by being honest.
    Mr. Edson. We need them because--let me start by saying----
    Mr. Shays. Slow down.
    Mr. Edson. We are not trying to block the implementation of 
the law in any way.
    Mr. Shays. You didn't ask for them. You didn't say, we 
couldn't do the job. That's true, right?
    Mr. Edson. Right. It is in the laws and we were trying to 
make it work.
    Mr. Shays. Fair enough.
    Mr. Edson. We have seen in Saudi Arabia, and seen 
increasing in your dialog with DHS, that there's a potential 
for a real benefit here. But as I suggested to Mr. Van Hollen, 
we are concerned to make sure that we get the mission right at 
the ``git go.'' Those are somewhat dangerous countries. There 
are already fairly small and strained physical plants in a lot 
of these countries. We would like to make sure that what the 
mission of the VSOs is really adds value. It seems like it 
does.
    Mr. Shays. It's been 2 years now, right?
    Mr. Edson. Right.
    Mr. Shays. It has been 2 years. What I am hearing you say 
basically, I will try to read between the lines. You didn't ask 
for them. Congress has said you have to have them. What I am 
hearing you say is basically you don't know what they are 
doing. And let me finish. This is what I am hearing.
    And what I am also hearing is stiff upper lip, you are 
going to try to make the best of it and you will find a place 
to put these folks. That is what is coming across, and that is 
OK.
    Mr. Edson. I'm a little bit misleading then perhaps.
    Mr. Shays. Let me ask you this, could State Department do 
this job?
    Mr. Edson. Yes, ultimately.
    Mr. Shays. And I think that is what their argument was 
originally. But we have imposed it on you.
    Now tell me, are we close to finally having an agreement 
that we are going to get them into the other four countries?
    Mr. Edson. Yes. And I think that having deployed 
additional--Saudi Arabia has its mission defined by statute so 
it's an unusual model. I think having deployed to those 
additional countries, that deployment will end up clarifying 
the mission significantly and will speed up the process down 
the road. I don't think that there will be quite as much delay 
in the future, certainly not in 2 years.
    Mr. Shays. Ms. Dezenski, tell me, what is the value added 
of the VSOs?
    Ms. Dezenski. Well, let me state the tremendous value I 
talked about how all of our officers have an average 15 years 
of law enforcement experience. So they come from a different 
background than a consular officer. We are talking about folks 
who have worked as port of entries, folks who have done 
numerous investigations, have spent time abroad working in an 
investigative capacity. It is a different function.
    Mr. Shays. Fair enough. You had answered that before and so 
we don't have a problem with you believing in this, is that 
correct?
    Ms. Dezenski. That's correct.
    Mr. Shays. OK, but we do have a problem with you not being 
forceful enough in getting them in there and that I think is 
true and if you do have pushback from State Department, besides 
going to your superiors and so on, I think you need to come to 
Congress and say we are getting the pushback and we will help 
push the other way.
    Maybe before going back to Mr. Van Hollen and then we will 
close up, here, Mr. Ford, Ambassador, would you tell me, 
candidly, did you see value in the VSO officers or is their 
value somewhat of a question?
    Mr. Ford. I can say, based on our observations in Saudi 
Arabia, yes, they did in fact add value there. And I think, 
again, I think it is important, this is linked to our other 
report, when we talk about the lack of enough experienced 
supervisory consular officials in several posts, one of which 
happens to be Saudi Arabia, having a law enforcement official 
there that has capability to and experience on law enforcement 
matters that State Department currently doesn't have, basically 
that is a value added, and every senior official we talked to 
in Saudi Arabia had that view.
    The real issue is whether or not you multiply that to the 
other 210 posts overseas, because some places are going to be 
different in terms of the environment, the workload and the 
other factors that go into making a decision about whether you 
really need a law enforcement person there or not.
    Mr. Shays. OK, Mr. Ambassador.
    Mr. Lange. Mr. Chairman, in a recent inspection report that 
we issued regarding a post in South Asia, we expressed some 
concern about a proposed VSO due to the lack of specificity in 
what the person would be doing and we thought it was important 
that there be a clarification of duties to avoid overlap with 
the Consular Section's Fraud Prevention Unit and the Assistant 
Regional Security Officer for Investigations.
    Mr. Shays. Describe to me the difference between the fraud 
out of the consular's office and VSOs? What is the difference?
    Mr. Lange. The RSO, regional security office----
    Mr. Shays. They are under State?
    Mr. Lange. They are under State. It is part of the Bureau 
of Diplomatic Security, and they look broadly at investigations 
which could be of locally hired employees, it could be of visa 
applicants and its broad connection and have very little close 
contacts with the local law enforcement authorities.
    The Fraud Prevention Unit is more focused on--and that is 
in the Consular Section that is under State. They are more 
focused on the specifics of the applicants who come in, the 
documents that come in, possibly false birth certificates, 
things such as that. And then they work closely with the RSO to 
utilize those contacts with the police authorities. And our 
recommendation in that report was to try to ensure that the VSO 
that was proposed for this post have a clarification what those 
duties are so there would be no overlap.
    Mr. Shays. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. And not to go over 
this ground too much, but let me just ask a question that 
really is raised, Mr. Ford, by your response, and it raises a 
question. You pointed out that in Saudi Arabia, one of the 
reasons the people you talked to said that Visa Security 
Officers were needed, one of the reasons you mentioned was 
because you didn't have enough mid-level consular officers, 
which raises of course the question of staffing of consular 
officers generally and if Ambassador Lange and others, Mr. 
Ford, others, you spoke to it in your testimony in part. But if 
you could just talk a little bit about to what extent we are 
short staffed in key posts with regard to consular officers 
because that is a separate issue. I think it is important in 
Saudi Arabia that someone is helping fill that vacuum. But that 
doesn't mean that we shouldn't be fully staffed in our other 
posts. Let's go back to the fact that this is right now one 
post. Even when expanded to five we still have hundreds, lots 
of countries left where it is going to be the consular officers 
and the consular officer is going to be on the front line, and 
they need to have the training so that, you know--where I have 
some trouble with all this testimony is the suggestion that, 
you know, when these guys aren't around that the State 
Department consular officer isn't in a position to adequately 
protect the national security interests of the United States 
because they don't have this training. So No. 1, we are going 
to need consular officers that have the training in all those 
other posts, unless we ultimately go to a model where in every 
post we have, you know, Visa Security Officers and consular 
officers. So that is one issue.
    And the other issue is the short staffing; in other words 
both the training of the consular officers, but also the 
staffing. If you could just speak as to the adequacy of our 
current staffing of consular officers overseas, what needs to 
be done to improve it, is this a money and resources issue, is 
this a priority allocation issue within the department? Is it 
all of the above? What do we need to do?
    Mr. Ford. I will start.
    I think this is, for us, this is probably the most 
important issue that we still think requires greater attention, 
particularly at the State Department.
    In the report we issued today, we cite that at the end of 
April the department was short about 26 percent of their mid-
level positions, overall, in Consular Affairs sections.
    We visited Saudi Arabia and Egypt, and we found that at the 
time of our visit we didn't have supervisory staff there. We 
made a recommendation back in 2002 that the Department address 
a prioritized system of staffing to ensure that we had the 
right people in the right place.
    The Department has, in fact, hired more people, but they 
haven't really implemented the intent of what we called for 3 
years ago and we have called for again in today's report, and 
that is we believe that since they know they are going to have 
shortages in the supervisory ranks they need to come up with a 
plan that prioritizes posts overseas where the most senior 
experienced people should be assigned. And currently, they are 
basically operating the way they normally operate in the way 
they assign their staff, which does not really prioritize those 
positions.
    So that is what we would like the Department to do, is to 
reexamine and come up with a plan that basically over time says 
these are most critical posts that we need to have our most 
senior people there. So that is the issue. And they are hiring 
more people, and eventually somewhere down the road hopefully 
all the positions will be filled with the right people. But 
they are not there now.
    Mr. Van Hollen. Makes sense to me. Is that what State 
Department's plan is, to prioritize posts with respect to if 
you have a shortage of consular officers, make sure they are 
deployed to the places where you think is most important to 
have them?
    Mr. Edson. Certainly. When we were discussing this with GAO 
we were trying to discuss with them the sort of complexity of 
the overseas staffing situation. We have to prioritize the visa 
function in high security environments, obviously.
    We also have to make sure we have enough people on the 
ground to handle American citizens and be cognizant of the fact 
that there is no such thing as a nonstrategic visa. I mean, 
anywhere we issue a visa it can be misused. So we can't afford 
to let any post no matter how apparently tranquil go unfilled. 
That doesn't mean that the goal is 100 percent when we only 
have 80 percent of our mid-level people available for 
supervisory positions. But it is a balancing act from year to 
year. Sometimes if we have a particularly energetic or talented 
senior officer in a place it might make more sense to leave the 
mid-level position vacant and assign that person to somewhere 
else.
    We try to do our best. We do acknowledge that there is a 
need here that we need to be more careful in trying to fill the 
positions in places like Saudi Arabia in a more timely manner. 
Now most of them in Saudi Arabia and Cairo which were vacant at 
the time of the study are now filled.
    Mr. Shays. Just fairly quickly, I hope, when we send people 
overseas, do we have to declare them to the country involved, 
state what the job is? So would we declare that this person was 
a VSO officer? And I believe the answer is yes, correct?
    Mr. Edson. The answer is yes that they are declared. I 
would have to take the question in terms of degree of 
specificity that we declare their function.
    Mr. Shays. See, my sense is I am getting kind of sensitive 
to this but if the host country knows that we have a VSO 
officer, I would like to think that American citizens have a 
right to know. And I would make a request to State if they are 
not enthusiastic for VSOs and they are saying no, I would like 
them to reargue this case before Congress and have a meaningful 
debate about it. And I would make a request for State and DHS 
if they don't have the resources, don't tell the appropriator 
that you have everything you need to get the job done.
    I mean, I realize you probably don't go before the 
appropriators, but we are just not being told things that we 
need to be told in open discussion. And so I am certainly going 
to visit this issue, and this subcommittee will as well.
    Mr. Ford, Ambassador, tell us the best thing State is doing 
and the worst, and the best that DHS is doing and the worst.
    Mr. Ford. I think in terms of using the visa processes as a 
security tool, that from my perspective, the most important 
thing the Department has done is they've made it a priority, 
the State Department has made it a priority in overseas 
operations. When you go and talk to consular officials today 
overseas, and we visited 8 of them and we have contacted 
another 17, so we covered 25 in total--every place we met with 
people or talked to people it was clear that the visa process 
as a security device was critical to that mission.
    So I would say that is the most important thing, is that 
change in mindset at the Department of State with regard to 
ensuring that security is part of that process. So that is what 
I would see as being the best thing that has happened.
    I think they have done a lot of other things in regard to 
training, in regard to ensuring that their procedures are more 
clear to their people overseas. They have made enhancements in 
all of those areas, and we want to give them credit for that.
    Mr. Shays. What is their biggest weakness right now?
    Mr. Ford. The biggest weakness, in my view is the staffing 
issue we just talked about. I think at the end of the day we 
are talking about individuals that have to make a judgment as 
to whether a person is going to get a visa or not.
    Mr. Shays. And part of the problem with staffing of State 
is that we have underfunded them for a number of years. We lost 
a whole number of years of folks who could buildup in 
seniority. So we have this gap in leadership. But I am making 
the assumption that we are trying to fill that gap but now we 
have a lot more inexperienced folks at State.
    But I also want to say for the record, this subcommittee 
has responsibilities overseas. We oversee State and Defense and 
so on. We go to a lot of places. I have met some of the finest 
men and women working for the State Department. You are just an 
awesome group of people, and I am very appreciative of the work 
they do.
    Ambassador, what is the biggest strength of State and the 
biggest weakness? If it is different or the same, you can just 
tell me it is the same.
    Mr. Lange. In our perspective, the office of the Inspector 
General, the best improvements in addition to the culture 
change that could be the single most overriding issue that Mr. 
Ford mentioned, is the training. The consular training that is 
done by the Foreign Service Institute in cooperation with the 
Bureau of Consular Affairs has really been dramatically 
changed. The analytic interviewing, the involvement of the CIA 
to help on that, anti-terrorism, counterterrorism efforts, etc. 
That has really been a huge improvement and we detect that 
whenever we go out and visit embassies and consular officers 
explain to us what kind of experiences they have had and what 
kind of training.
    I think consistent with the view of the GAO is that the 
biggest problem is in the human resource area. And it is not 
that it is going badly, but that it needs to be monitored 
because it is a very complex issue, in part because of the 
issues that you raised, Mr. Chairman, regarding the influx of 
new junior officers that occurred over the last 4 or 5 years 
through what is called the Diplomatic Readiness Initiative to 
make up for the insufficient hiring in the 1990's. And as that 
bulge of new officers goes through the system, there will be 
more and more available at the mid-level with experience who 
will be able to fill these positions. But in this interim 
period, in a sense, there are some problems with junior 
officers filling jobs that really should be led by mid-level 
officers.
    Mr. Shays. DHS? Biggest strength, biggest weakness?
    Mr. Lange. In terms of us I will have to defer to the DHS 
on that one.
    Mr. Shays. Are you in a position to----
    Mr. Ford. Well, again, in the case of DHS----
    Mr. Shays. As it relates to?
    Mr. Ford. The Visa Security Officer program. Again our view 
is it is too early to tell what the overall value added of 
these officers will be. As we say in the report, we think that 
DHS should come up with an overall plan for how these people 
will be integrated overseas, and also they need to have better 
information about what the value added is. They need to be able 
to say that as a consequence of having these people we have 
more fraud cases, we are finding more bad people than we had 
before. They need to be able to demonstrate that having these 
people assigned overseas is actually going to make a meaningful 
difference in the overall security process, and right now they 
haven't got those metrics and we think they need to develop 
those. And they also need to develop them to convince the State 
Department that it is useful to have these people assigned.
    Mr. Shays. Right, OK. Mr. Edson, biggest strength, biggest 
weakness right now, State.
    Mr. Edson. Biggest strength----
    Mr. Shays. For your comfort level, I will just say biggest 
challenge, OK?
    Mr. Edson. Biggest challenge is staffing. It is not 
entirely in our hands. But both filling the mid-level gap in 
terms of people coming up through the ranks, a better way to 
address the fact that with the changes we have made to the visa 
process, we have definitely broadened the base of the pyramid. 
In terms of the requirement for more entry level people or 
lower level visa adjudicators, is now, real and continuing. It 
will be with us forever. So I think we have created a dynamic 
that will probably result in imbalances in the personnel system 
on an ongoing basis, and we need to figure out how to----
    Mr. Shays. Let me say, Congress did that. I mean, we 
underfunded, at a point, we allowed you not to hire certain 
people that created this imbalance of----
    Mr. Edson. In addition, I am thinking in terms of things 
like the interview requirements and the biometric collection 
requirements which we are right now doing with consular 
officers, you just--we have created a requirement for a broader 
base of lower level visa officers on an ongoing basis, and we 
need to deal with that.
    Mr. Shays. Ms. Dezenski.
    Ms. Dezenski. Our biggest challenge is breaking through the 
NSDD process. It has to move more quickly. We need to speed up 
the deployment of our folks. They are trained and ready to go. 
We won't have meaningful performance metrics unless we have 
more people to develop those metrics.
    Mr. Shays. You're understaffed to develop those?
    Ms. Dezenski. I think that we are going to have a hard time 
putting performance metrics together if we don't have more 
locations to add into those performance metrics.
    Mr. Shays. But I got the sense from what you were saying 
that you don't have the staff to start to develop those metrics 
and so on?
    Ms. Dezenski. I think we do have the staff ready to develop 
that. The issue is getting our people deployed.
    Mr. Shays. OK. Well, you know, some of that fight maybe 
needs to be a little more public and you need to involve 
Congress in this process. OMB is not a dictatorship. It may 
seem like it is. But if OMB decides what you're allowed to say 
before a committee, you're going to have misinformed Members of 
Congress and we will not provide the resources where they are 
needed. And there needs to be a little more faith that if we 
have some knowledge that it will benefit you all. And it is not 
being disloyal telling us where these issues of disagreement 
are. It is what makes our job interesting.
    Is there anything that you need to put on the record before 
we get to the next panel? Is there any statement you want to 
clarify or correct from someone else or whatever, any question 
that you wish we had asked that we should have asked that would 
have made this a better hearing?
    Ms. Dezenski. Sir, I would like to add a couple comments to 
the record. I have a great staff behind me. They have fed me 
some good statistics that I would like to note for the record. 
The first is that we want to note that the Ambassador in Saudi 
Arabia has actually asked us to increase our staff. We think 
that is one of the best examples of the efficacy of what we are 
doing.
    I have mentioned we had started the process on the NSDDs in 
2003. That is true for Saudi Arabia, but the four additional 
countries were submitted in June 2004. I wanted to make sure 
that was understood. And in terms of revealing where we have 
VSO officers, the main reason that we are quiet about it is 
because we don't what visa applicants moving to the next 
available post because they know they won't have to go through 
that scrutiny.
    Mr. Shays. OK, well, I congratulate your staff on good 
staff work. But I would say that we could make a list of 15 or 
so countries where you need to have folks. And the sooner we 
get that done the better. Or State Department needs to be 
making sure they are doing what the VSO folks would be doing. 
You all are good people. I thank you for your service to your 
country, and I thank you for participating in this hearing. 
Thank you very much.
    Our next and final panel is the Honorable Clark Kent Ervin, 
Director of Homeland Security Initiative, Aspen Institute; Dr. 
James J. Carafano, senior fellow of Heritage Foundation; Ms. 
Susan Ginsburg, former senior counsel, National Commission on 
Terrorist Attacks Upon the United States, what is in fact the 
9/11 Commission; and Mr. John Daniel Morris, retired Consul 
General, U.S. Mission to Beijing, China.
    [Witnesses sworn.]

  STATEMENTS OF CLARK KENT ERVIN, DIRECTOR, HOMELAND SECURITY 
  INITIATIVE, ASPEN INSTITUTE; DR. JAMES J. CARAFANO, SENIOR 
FELLOW, THE HERITAGE FOUNDATION; SUSAN GINSBURG, FORMER SENIOR 
  COUNSEL, NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE 
 UNITED STATES (THE 9/11 COMMISSION); AND JOHN DANIEL MORRIS, 
     RETIRED CONSUL GENERAL, U.S. MISSION TO BEIJING, CHINA

                 STATEMENT OF CLARK KENT ERVIN

    Mr. Ervin. Thank you very much, Mr. Chairman and Mr. Van 
Hollen. Thank you very much for inviting me to testify today on 
this critically important topic of whether 4 years after 
September 11th security gaps remain in our visa policy that can 
be exploited by terrorists.
    There is no question but that it is harder than ever before 
for terrorists to get a visa into the United States. Before 
September 11th, it was relatively easy. Back then, even though 
the law required State Department officers to interview visa 
applicants, this legal requirement, as you know, was routinely 
waived. The waivers were to be exceptional and interviewing 
applicants was to be the norm. In practice the reverse was 
true. Indeed, as we heard, when an interview was granted, it 
was usually for the purpose of giving an applicant, who had 
already been rejected on a first documentary review, a second 
chance to convince the State Department that he should be 
admitted to our country. And we all know now about the 
notorious visa express program in Saudi Arabia and like 
programs elsewhere that allowed third parties in foreign 
countries to review visa applications on the State Department's 
behalf.
    Further, State consular officers had limited access to 
information and other government agencies' data bases, 
indicating whether a given applicant might be a terrorist. 
There was nothing in the State Department's CLASS data base 
indicating that any of the September 11th hijackers was a 
terrorist, but there was information in other agencies' data 
bases that had that information been shared in a timely fashion 
with State those terrorists might never have gained entry into 
our country.
    Fortunately, nowadays there are no visa express programs, 
most applicants are interviewed, consular officers are better 
trained to spot terrorists and signs of fraud. The CLASS data 
base contains 21 million records of known or suspected 
terrorists and other people who for some reason are ineligible 
for visas, nearly triple the number prior to the attacks, and 
about 70 percent of the data base is based on information 
passed to the State Department by the FBI, the CIA and other 
law enforcement intelligence agencies. So information sharing 
among relevant agencies is much better than it was 4 years ago.
    But I want to focus my remarks on the issue that you 
focused most on, Mr. Chairman, and that is the whole Visa 
Security Officer program.
    Gaps remain in the visa process that terrorists could 
easily exploit to readily effect. First of all, and most 
importantly, and I will leave the rest of my remarks for the 
printed record, the Visa Security Officer program provided for 
in the Homeland Security Act has not lived up to its promise. 
Since 15 of the 19 hijackers were from Saudi Arabia, this 
provision, as you know, mandated the stationing of Homeland 
Security officers in Saudi Arabia to oversee State's 
administration of the visa issuance process to ensure that no 
more visas are issued to terrorists, at least from that 
country.
    The DHS officers sent were presumably to be experts in 
counterterrorism, fraud detection, interview techniques and 
other relevant areas. The provision, as you noted, went on to 
say that Visa Security Officers should be dispatched to every 
visa issuing post in the world, unless the Secretary of 
Homeland Security can explain why stationing such officers in a 
given country would not contribute to homeland security.
    When I looked into the VSO program last year as the then 
Inspector General of Homeland Security, we found that it was 
not making much of a difference in Saudi Arabia. There were no 
designated VSO slots, the positions were filled by volunteers, 
and the volunteers were serving only on a temporary basis, 
resulting in a rapid turnover of personnel. I think the average 
was about 7 months at the time. And the temporary volunteers 
were lacking in the basic skills they needed to be effective. 
For example, one officer had no law enforcement experience. 
Another had never worked outside the United States.
    Mr. Shays. I don't usually interrupt someone who is 
testifying but when you say volunteers, that has a whole 
meaning to me. Are you saying someone from DHS who volunteered?
    Mr. Ervin. That's right. Another had never worked outside 
of the United States and as a result he had no idea how an 
embassy works. Another had no knowledge of the visa process. 
And only 1 of the 10 spoke Arabic. Even though the DHS and 
State Department officers were located just a few feet from 
each other, neither could then access the other's data bases, 
so both were inputting and then sending back to Washington for 
a fuller background check essentially the same information. As 
a consequence, precious time was being wasted by State 
Department, the Department of Homeland Security, their 
respective headquarters, and other key members of the U.S. law 
enforcement, intelligence communities, leaving the VSOs little 
time to do what they were supposedly uniquely competent to do, 
review visa applications strictly from a counterterrorism 
perspective.
    There have been some advances in the VSO program in Saudi 
Arabia since then. As for the temporary what I call volunteer 
turnover problem, according to the GAO as you heard, DHS has 
hired and trained four permanent employees and deployed them to 
Saudi Arabia in June, and they are to stay there for a 1-year 
period. As for language ability, two of the four reportedly 
speak Arabic. I understand from other sources that the VSOs are 
no longer wasting time inputting the same data and transmitting 
it to Washington that consular officers at post had already 
input. But as you have heard, while there is anecdotal evidence 
that VSOs have helped to keep terrorists outside of the United 
States there is no hard and fast evidence of that because DHS 
has not kept track of any data that might shed light on it.
    More troubling to me and indeed most troubling to me is 
that the program, as you indicated, Mr. Chairman, has yet to be 
expanded to any country other than Saudi Arabia. If VSOs are 
such an effective counterterrorism tool, if they have expertise 
and access to information that State consular officers don't 
have, it is critical that they be deployed to every visa 
issuing post throughout the world as quickly as possible, 
otherwise terrorists could slip into the country by obtaining a 
visa in any of the other nearly 200 countries with which the 
United States maintains diplomatic relations.
    While DHS, as you heard, intends to add five posts this 
fiscal year, this fiscal year is nearly over. And as you heard, 
VSOs have yet to be deployed to any of them.
    While DHS intends to expand the program at the rate of five 
posts a year, this is troubling because at that rate it will 
take about 40 years for VSOs to be deployed worldwide, giving 
terrorists plenty of time to apply for a visa from countries 
lacking putative protections of the program.
    And I will close with this final paragraph. In my judgment 
we should make VSOs as effective as possible. They should in 
fact be expert in counterterrorism, fraud detection, interview 
techniques and the like. They should have country and area 
expertise and they should all be proficient in the local 
language, and then they should be deployed throughout the 
world. We should not allow the State Department to exercise an 
effective veto over the expansion of a program by subjecting 
this program to the NSDD 38 chief admission authority process 
by which our Ambassadors, as you have heard, are in power to 
approve or deny other agencies' requests to have representation 
in the embassy. This process may be acceptable for the 
Agriculture Department. It is not acceptable for the Department 
of Homeland Security.
    After all, as you noted, Mr. Chairman, a compromise was 
reached between State and DHS to allow State to continue to 
process visa applications and to issue visas only on the 
understanding that DHS would have the final say on visa 
issuance. The fear was that absent the strong hand of a 
department focused exclusively on counterterrorism, the more 
diplomacy oriented State Department might revert to a mindset 
that focuses more on diplomacy and customer service than 
counterterrorism.
    I will stop there and be happy to take your questions.
    [The prepared statement of Mr. Ervin follows:]

    [GRAPHIC] [TIFF OMITTED] T3853.045
    
    [GRAPHIC] [TIFF OMITTED] T3853.046
    
    [GRAPHIC] [TIFF OMITTED] T3853.047
    
    Mr. Shays. Thank you very much.
    Dr. Carafano.

                 STATEMENT OF JAMES J. CARAFANO

    Dr. Carafano. Thank you, Mr. Chairman. First, I want to 
applaud this subcommittee on holding these hearings. I would 
argue that in the area of interdicting terrorism travel this 
needs to absolutely be our No. 1 national priority and there is 
a lot of discussion about dealing with illegal entry to the 
United States and making the border safer. And while I would 
agree that is important, quite frankly we know that virtually 
every known terrorist that has come into the United States has 
used some form of travel document. And this is simply the No. 1 
way terrorists seek to exploit every way to get into this 
country. But this is simply the No. 1 way, and this simply 
needs to be our No. 1 priority in this area.
    The one comment I would make is that as we look at those 
programs and assess since September 11th I really think we need 
to be sober in our expectations. If we really want to make 
progress in this area, we have to have realistic deadlines. We 
have to have adequate resources. We have to have adequate human 
capital programs. We have to have clear standards, we have to 
have credible measures of performance and we have to have 
integrated ID programs and if you want to know why things 
aren't working better you can look across all those areas and 
get the answer.
    I agree with Clark. Things are absolutely much better than 
they were before September 11th. I don't think that is 
disputable. One of the most important recent developments in my 
mind is the second stage review by Secretary Chertoff and the 
Department of Homeland Security and two critical decisions he 
has made. One is to create an Under Secretary for Policy and to 
elevate the International Affairs Office into that office and 
give it overall responsibility. I think one of the things that 
has really hamstrung DHS since the start is that it hasn't had 
a coordinated, integrated approach to its international affairs 
and it hasn't had a high level person directing overall policy 
integration in the Department. That is critical. I think 
establishing a Chief Information Officer and breaking him away 
from the IAIP and focusing just on intelligence and just on the 
issue of intelligence is absolutely critical. And if there is 
one recommendation I would make to the Congress, it is to be 
fully supportive of the Secretary's organizational changes that 
he proposed in the second stage review.
    I think here is what we can say we have learned over the 
last 4 years and that making progress has been incredibly 
difficult, very costly and very problematic. So what I would 
really like to direct this subcommittee's attention to is I 
thing we ought to go back and ask a fundamental question, is 
knowing that making progress in the existing system is so 
difficult and so costly, we should really ask ourselves do we 
want to continue on this course or do we simply want a new and 
different paradigm and do things very, very differently.
    I think terrorism is a long-term problem. The terrorists 
aren't going anywhere. It took 5 years to plan September 11th, 
it took 3 years to plan Madrid. This is going to be an endemic 
problem in the 21st century. I think we should take our time 
and build a system and get it right, and staying with a legacy 
system, which we know fixing it and making it better is very, 
very difficult, may not be the right--we may not have made the 
right policy choice in the Homeland Security Act of 2002.
    I would argue that we take a different course. I think it 
makes no sense to divide major responsibilities between three 
major departments. I would consolidate them all in one, and I 
would argue that should be the Department of Homeland Security 
and then----
    Mr. Shays. Three major responsibilities being----
    Dr. Carafano. Justice, Department of Homeland Security, 
Department of State.
    And I would argue that we go back and start with a blank 
sheet of paper and envision a new program or new system on how 
we want people to come in and exit this country in the 21st 
century.
    And I will end by commenting on two things that I think 
should be an important part of that strategy. One is the Visa 
Waiver Program, and I would simply argue as a matter of 
strategy that this is the right solution. If you can get 
countries into the Visa Waiver Program and have a degree of due 
diligence that they are operating with the same due diligence 
that we are, you do two things. One is you build more 
geostrategic partnerships, and there are lots of countries that 
we want to be open and be stronger partners with. And the 
second one is you take an enormous amount of resources and then 
you can then shift them to other States that aren't meeting 
that same level of due diligence.
    And the second point I make is we really need the 
equivalent of the Military War College's National Defense 
University. We really need a Homeland Security University that 
brings together these mid-level people in the State Department 
and Justice and Homeland Security to really have them in an 
academic environment, to really think deeply about these 
challenges. And one of them should be terrorist travel. There 
should be an entire academic environment for these mid-level 
people to sit together and deep think about this issue. So I 
really think we do need some kind of equivalent to the War 
College experience for our future leaders in these three 
departments. And one of the core pieces of that curriculum--not 
something in the Consular School, not something that is an add-
on course, not Tuesdays instruction, but a serious intellectual 
development. As warfighters think about how to conduct a 
campaign, people in these other agencies should be thinking 
about how to fight terrorism.
    [The prepared statement of Dr. Carafano follows:]

    [GRAPHIC] [TIFF OMITTED] T3853.048
    
    [GRAPHIC] [TIFF OMITTED] T3853.049
    
    [GRAPHIC] [TIFF OMITTED] T3853.050
    
    [GRAPHIC] [TIFF OMITTED] T3853.051
    
    [GRAPHIC] [TIFF OMITTED] T3853.052
    
    [GRAPHIC] [TIFF OMITTED] T3853.053
    
    [GRAPHIC] [TIFF OMITTED] T3853.054
    
    [GRAPHIC] [TIFF OMITTED] T3853.055
    
    [GRAPHIC] [TIFF OMITTED] T3853.056
    
    Mr. Shays. Thank you. Is there any model of any school 
somewhere else? Any country has a school on homeland security?
    Dr. Carafano. No.
    Mr. Shays. It would be kind of like Newt Gingrich thinking 
out of the box here?
    Dr. Carafano. Yes.
    Mr. Shays. Ms. Ginsburg.
    Ms. Ginsburg. Mr. Chairman----
    Mr. Shays. That is the mic that has the least 
amplification. If you want to pull it closer to you.

                  STATEMENT OF SUSAN GINSBURG

    Ms. Ginsburg. Mr. Chairman, Mr. Van Hollen. It is a 
privilege to appear before the subcommittee which has 
maintained a consistent focus on the visa process since 
September 11th and acted as a force for its continual 
improvement.
    Let me first summarize the GAO's key findings as follows. 
The visa process must serve simultaneously as an anti-terrorism 
tool and as a facilitator of legitimate travel. Consulates are 
still understaffed in numbers, expertise and experience levels. 
Counterterrorism and counterfraud tools are improved but not 
optimal and DHS's practical contribution to the visa process 
remains unclear.
    Each of these points calls for comments from a 
counterterrorism perspective.
    The visa process as an anti-terrorism tool. Visa offices 
are crucial screening points for the defensive blocking of 
dangerous individuals. Offensively, they help detect and 
counter terrorist operations and help counter the criminal 
infrastructure for illegal immigration, which also contributes 
to terrorist mobility.
    All terrorist groups have to execute certain basic 
functions: Making decisions, communicating, recruiting, 
training, raising and distributing money, and moving people and 
material. Each facet presents a potential vulnerability.
    Terrorist mobility, the need to move people, is central. 
When terrorists need to cross sovereign borders for any of 
their critical functions, their vulnerabilities and our 
opportunities for detecting them are greater.
    The mobility function offers opportunities for designing 
new offensive and defensive measures. We can create new types 
of information based on it, use it as points of attack or make 
it more difficult to carry out, especially secretly. Yet 
terrorist mobility has received significantly less attention 
than it demands. The visa process is central to this new field 
of terrorist mobility. The visa office is a key location where 
we have the opportunity to detect and intercept terrorists, or 
at least ensure that they leave a footprint.
    This footprint can contribute to a larger analytic effort 
by consular offices and others. This information will become 
relevant later when a new crew allows visa data base 
information to be read as the record of terrorist passage. With 
other information, it can reveal patterns and trends and speed 
the design of new countermeasures.
    Visa offices, consulates and embassies are also critical 
locations for crime control. Visa officers gain access to 
information that can lead to detecting false personas and 
fraudulent travel in supporting documents. When analyzed, this 
information will allow investigators, intelligence officials 
and diplomats to take actions against the sources of those 
illegal travel tactics.
    This includes penetration of criminal networks, preemption 
and deterrence. Visa offices must take an increasingly 
significant role in crime control against such illegal travel 
practices and organizations. This role adds a new dimension of 
importance to the personnel and practices dedicated to this 
function.
    Lack of trained personnel is unacceptable at a time when 
consulate affairs has a critical national security role in 
countering terrorist mobility. I do not believe that role can 
be transferred to the DHS. The GAO reports significant growth 
in visa office staffing, but also presents a troubling picture 
of supervisory positions filled by entry level officers, 
shortages, and language training deficiencies.
    Consular offices are transit points which force terrorists 
to surface and confront governmental authorities. There must be 
people in place with experience in the region so that they are 
better able to read the clues presented by the people in front 
of them and to devise systems to improve information gathering.
    The Intelligence Reform Act recommended additional consular 
officers. Until this occurs there should of course be a process 
for establishing priorities for filling posts critical to 
national security.
    Part of the good news in the GAO report is that the State 
Department is currently developing distance learning courses in 
the areas of fraud prevention and terrorist mobility. This is a 
good beginning as long as they are mandatory requirements. Once 
the courses are distributed, consular officers must determine 
whether they are adequate and what modifications are needed.
    Two other points about counterterrorism are important. 
First, each post's officers must have a thorough understanding 
of the role of that geographic area in terrorist mobility and 
in the criminal infrastructure for illegal migration. This 
probably means developing specialists at posts for this 
purpose. These specialists would have a career path that 
reflected their role such as cross-service in the intelligence 
community and at ports of entry.
    At present there appear to be at least 25 visa fraud 
investigators deployed, but no specialists in terrorist 
mobility. Only specialized knowledge, however, allows visa 
fraud to be recognized as terrorist related, and it does not 
appear that the ability to make these assessments is a 
mandatory requirement for any of the fraud investigators.
    Second, there still appears to be insufficient focus on 
travel and supporting documents as a means of detecting 
terrorists. As you know, the 9/11 Commission found that 15 of 
the 19 hijackers were potentially detectable as terrorists by 
documentary indicators.
    Information relating to potential terrorists' travel 
documents is extensive, detailed and ever changing. Rather than 
making information available only by classified computer, a 
better approach would be to automate it.
    Currently, there are no electronic screening of passport 
books themselves and of accompanying documents; in other words, 
they look at the passport. It doesn't go through any kind of 
machine that can read it using technology. This can be done to 
determine authenticity, to detect adulteration and terrorist 
and criminal indicators. Yet this capability exists and can be 
further augmented.
    The goal should be electronic screening of foreign 
passports and identification documents using these kinds of 
algorithms. One dimension of a terrorist mobility specialist 
job should be expertise and documentary indicators just as 
there are forensic passport specialists today who supply the 
Nation with expertise on fraudulent passports generally.
    Improved fraud detection through interviews with visa 
applicants and scrutiny of their documentation is a critical 
dimension of countering terrorist mobility, of crime control 
and immigration management. Once fraud of any kind is detected, 
there must be an additional effort to detect any links to 
terrorism or to a criminal organization that may have links 
with terrorists.
    According to the GAO, what consular officers are requesting 
are better counterterrorism tools and training. The basic truth 
here is that DHS personnel from ICE or CBP do not have any 
greater expertise in terrorist mobility than consular affairs 
officers. The experiment of having DHS visa security officers 
perform this role for which they are no better equipped than 
the personnel at the State Department should end. Instead, 
there should be a focus on what functions DHS officers must 
fulfill overseas themselves to counter terrorist mobility.
    Consideration should be given to building up at least two 
important roles to supplement the visa function overseas: 
First, a serious program to staff airport embarkation points 
with DHS officers. That's a gap, especially for Visa waiver 
program countries.
    Second, the creation of a team of agents from ICE, 
Diplomatic Security and FBI to assist foreign law enforcement 
organizations in major cases against criminal travel 
facilitation organizations.
    To conclude, the visa process is essential to counter 
terrorism, to crime control and to immigration management, 
including the facilitation of legitimate travel fundamental to 
our commitment to freedom and to our economic well being. Until 
visa officers and other border control points are seen as 
central contributors to counterterrorism, at least as important 
as the FBI, the intelligence community and the military, their 
opportunities to combat terrorism will not be maximized. Visa 
offices need to become hybrid hubs for counterterrorism, crime 
control and immigration fraud expertise.
    To achieve this goal, more personnel, greater 
specialization, new technology tools and cross-training and 
cross-service among the relevant agencies are required.
    The work of this subcommittee, highlighted today by 
analysis of the GAO report you commissioned continues to be a 
source of innovation and excellence. Thank you.
    [The prepared statement of Ms. Ginsburg follows:]

    [GRAPHIC] [TIFF OMITTED] T3853.057
    
    [GRAPHIC] [TIFF OMITTED] T3853.058
    
    [GRAPHIC] [TIFF OMITTED] T3853.059
    
    [GRAPHIC] [TIFF OMITTED] T3853.060
    
    [GRAPHIC] [TIFF OMITTED] T3853.061
    
    [GRAPHIC] [TIFF OMITTED] T3853.062
    
    [GRAPHIC] [TIFF OMITTED] T3853.063
    
    Mr. Shays. Thank you very much.
    Mr. Morris.

                STATEMENT OF JOHN DANIEL MORRIS

    Mr. Morris. Mr. Chairman, thank you for the opportunity 
today to present my comments on post-September 11th U.S. visa 
procedures from the perspective of a consular officer in the 
field.
    As you know, I recently completed a 3-year assignment as 
Consul General in Beijing. I am now retired from U.S. 
Government after a number of years in the Foreign Service, 
primarily in consular work. In the course of my career, I saw 
many changes in visa work. As the world became more and more 
interconnected, demand for U.S. visas accelerated exponentially 
and technological innovations were introduced to try to help 
keep pace with efficiency and security needs.
    As I returned to consular work in the summer of 2002, 
following a period working in other Foreign Service areas of 
responsibility, it was evident the Department of State was in 
the midst of the biggest change regarding visas I had 
experienced. First, Secretary Powell had set out clear policy 
guidance that security is the No. 1 consideration in visa 
processing. While self-evident, that reality had become blurred 
in the course of two decades of declining resources and visa 
work in relation to the growing work demands and amidst policy 
admonitions to consular officers to find ways to do more with 
less due to budget constraints. Secretary Powell's definitive 
statement has since been a watchword to all of us in the field 
as we are trying to carry out those changes.
    Second, Consular Affairs Assistant Secretary Maura Harty 
put forth a series of detailed guidelines and instructions for 
officers in the field to ensure that the Secretary's policies 
would be carried out. These were very helpful to posts in 
sorting through all of their priorities and managing their 
workloads.
    Third, bolstered by Secretary Powell's Diplomatic Readiness 
Initiative, which increased Foreign Service officer intake, the 
Department endeavored to provide sufficient personnel to posts 
to enable them to actually carry out their responsibilities 
fully.
    As a consular officer, I saw that it was the first time in 
at least a decade that I experienced replacement visa interview 
officers beginning to arrive as the officers departed on 
reassignment without lengthy staffing gaps. But staffing was 
then and still is insufficient in many consular sections 
abroad, as you have heard already today.
    In China, we discovered precisely some of the things we 
have been talking about today, including, particularly, a 
shortfall in the mid-level consular supervisors. And this is, 
as you know, an echo from the drastic cutbacks in the intake of 
Foreign Service officers in the nineties. This put a lot more 
responsibility than was desirable in the hands of very talented 
but inexperienced officers in China.
    The officers conducting visa interviews around the world 
today are highly motivated and intelligent and language 
capable, very aware of their important role in the front line 
of America's defense. They're also very hard pressed to handle 
growing workloads of administering new security procedures 
which cumulatively slow down the visa process considerably.
    From the post perspective I believe the State Department 
policymakers have tried very hard to improve visa security 
procedures since 2001 and have made many significant 
improvements, among these the inclusion of substantially more 
names of potentially dangerous individuals in our lookout 
systems and success in the biometric registration or 
fingerprinting of virtually all visa applicants. Some other 
measures were not as carefully thought through, however, and 
have had the unintended effect of sending out an unwelcoming 
message to the rest of the world without adding significantly 
necessarily to the security equation.
    I provided one example of this in my written statement 
whereby security advisory opinion procedures directed primarily 
against terrorism had the side result of stifling U.S.-China 
academic exchange in the sciences. Where they can be identified 
these sorts of measures need to be reviewed and modified and 
new security initiatives should be carefully considered, 
focused on concrete objectives, and take into account the views 
of embassies and consular officers in the field where the 
policies meet reality.
    Finally and most importantly, as alluded to many times 
today, it is critical that serious stock be taken by all 
concerned in the visa process of present and future needs for 
consular resources, especially staff and facilities.
    I will be happy to respond to any questions you might have 
on these matters.
    Mr. Shays. Thank you very much. All your statements will be 
included in the record in their full form. Mr. Van Hollen.
    [The prepared statement of Mr. Morris follows:]

    [GRAPHIC] [TIFF OMITTED] T3853.064
    
    [GRAPHIC] [TIFF OMITTED] T3853.065
    
    [GRAPHIC] [TIFF OMITTED] T3853.066
    
    [GRAPHIC] [TIFF OMITTED] T3853.067
    
    [GRAPHIC] [TIFF OMITTED] T3853.068
    
    [GRAPHIC] [TIFF OMITTED] T3853.069
    
    [GRAPHIC] [TIFF OMITTED] T3853.070
    
    Mr. Van Hollen. I thank you, Mr. Chairman. Thank you all 
for your testimony this afternoon on this very important issue, 
and, you know, listening, we all agree with the mission, which 
is that these people on the front lines should be protecting 
our security, No. 1, but also making sure that legitimate 
travelers get here. But as I listen to you there are at least 
three different proposals with respect to the question of the 
visa security officers as I hear it. And I don't have a dog in 
this fight. I wasn't here, I don't think, when Congress created 
the Visa Security Office, so I'm just trying to listen to 
figure out what makes the best sense in organizational policy. 
And I listened to Mr. Ervin, who said let's continue along this 
path and expand visa security officers to every--should be 
deployed throughout the world, so you have the consular 
officers and next to them you have the visa security officers 
throughout the world.
    As I understand Dr. Carafano's testimony, your long-term 
solution would be essentially to take the Consular Affairs away 
from the State Department and place it in Diplomatic Security 
Department. I mean not diplomatic security, excuse me. DHS. And 
Ms. Ginsburg, you're suggesting that this has been essentially 
a failed experiment, that the evidence to date suggests that 
these security officers don't have a lot more training than the 
consular officer and maybe we should end that experiment, put 
the homeland security folks, deploy them in other areas in 
terms of disrupting travel patterns, terrorist travel patterns 
and essentially, as I understand it, allow the consular officer 
to take on that expertise. And I understand, Mr. Morris, I'll 
even say you seem to be closest to Ms. Ginsburg. I wasn't sure.
    So you sort of have these different options out there. And 
just looking at the situation as we see it today, noting that 
we only have visa security officers in one country right now, 
the delay in the expansion and the idea that we do want to make 
sure that at the end of the day, although there are obviously 
higher risk posts, that at the end of the day we want to make 
sure that there's no weakness in the system. We do want this 
emphasis on security or security to be a paramount concern 
everywhere. It seems to me that it does make sense to have one, 
maybe one department in charge, except for Mr. Ervin's point is 
the different institutional sort of mandates where you have 
homeland security maybe focused more on security issues as 
opposed to diplomacy issues would be a counter to that.
    That's all by way of suggesting that as I understood the 
testimony of the Government Accountability Office, Mr. Ford, he 
said that one of the main changes that he has seen with respect 
to the consular officers overseas, as echoed by Mr. Morris, is 
that people understand now that security should be the 
paramount concern and that should be the one focus. Given that, 
why doesn't it make sense, and given the fact that we already 
have the Consular Affairs within the Department of State, why 
doesn't it make sense to make sure that the consular officers 
who are on the front line get the training they need? They're 
already deployed to every consulate around the world. Why don't 
we make sure they get the training they need to develop 
whatever expertise that we want these visa security officers to 
have? Sounds like they don't necessarily have it right now. And 
we already have a sort of a deployment mechanism. Let's give 
them the expertise and the tools to do their job and let's get 
the staffing problem, which we all, everyone on the last panel 
said that was the primary issue, and yet we sort of move over 
it because, yes, that means resources and all that. But why not 
look at the model that we've got and beef up the training so 
that every consular officer overseas has the training 
necessary?
    Mr. Ervin. May I answer that first?
    Mr. Van Hollen. Yes.
    Mr. Ervin. Well certainly, Mr. Van Hollen, I think that all 
the State Department consular officers should have that kind of 
counterterrorism training, and as you say and as we heard, 
apparently more and more of them do all the time and certainly 
that's a step in the right direction. I think all of them 
should just as quickly as possible. But I'm just afraid that at 
the end of the day, there is an institutional mindset 
necessarily, and I don't think that--that's not a normative 
statement on my part. I just think that the State Department 
tends to focus on diplomacy and customer service.
    The whole theory behind the Department of Homeland Security 
is that there should be a department that is exclusively 
focused on counterterrorism. And of course implicit in what I 
was saying is the notion that these DHS officers actually be 
qualified to do work in the counterterrorism area to the extent 
there are DHS officers, VSOs who aren't qualified, and as I 
said, when I looked into the program last year as Inspector 
General, many of them were not. But this presumes that they 
will be. But I'm just afraid that if we're not careful, as the 
months and years go by without another attack and unless 
there's some huge increase in funding for the State Department, 
the institutional pressure to revert to form, to revert to 
focus on diplomacy will mean that we will be back years from 
now where we were before September 11th. If it were up to me, 
if this were tabla raza I frankly was supportive of the notion 
of giving the entire visa function wholesale to a Department of 
Homeland Security, a competent Department of Homeland Security. 
But as a practical matter that's not happened. I can't envisage 
that it will happen.
    That being so, this present structure is the one that we're 
going to have to live with. And if that's the case it seems to 
me VSOs need to be effective and they need to be deployed 
throughout the world.
    Dr. Carafano. Putting aside the issue of which department 
it should be, I would make the argument that it all needs to be 
in one department based on a very simple premise. Whether it's 
visa issuance or border entry, exit, the basic functions to be 
performed are exactly the same that you need, preliminary 
screening, secondary screening and investigation. My notion is 
any time you split those apart you've created a seam that 
doesn't need to be there and you create potential problems. 
This is like the police department in which the beat cop and 
the homicide investigator are in totally separate agencies. I 
mean, we don't do that. It's integrated. And so you want to 
have the guy that's doing the primary screening, or woman, and 
the secondary screening and doing the investigations that back 
that up all in one, all work for one person.
    You could put this to the test and say--and we could debate 
and argue, make the arguments why one versus the other. But I 
think if we want to move forward, rather than trying to create 
seams that don't need to be there, we need to focus all this so 
the person can make the intelligent decisions about IT 
integration, human capital programs, resources, infrastructure. 
Any time you have two people making decisions on those things 
you've guaranteed that it's going to take five times as long 
and cost 10 times as much.
    Ms. Ginsburg. Well, my comment would be that we have in the 
State Department now diplomatic security agents who are gun 
carrying investigators who refer cases to the U.S. attorneys 
and that they are fully capable of carrying out the same kinds 
of activities that are being outlined for the visa security 
officers, the analysis, the review of the trends, the regional 
expertise, the training of people like airline officials. All 
of those functions outlined by the witness from DHS are, in 
fact, what needs to be done. But in the 2 years that these 
people haven't been deployed, they haven't been deployed 
because there isn't that bench of expertise that the new 
security circumstances demand. There is a function in the State 
Department that can be expanded to meet this need and there's 
an intelligence function in the State Department that's very 
well regarded. And there's a deep knowledge already of 
immigration and criminal fraud matters relating to passports 
and visas, which is precisely the expertise that you need 
overseas. I would argue that needs to be expanded, the function 
of the diplomatic security, the function of units like the--I 
think it is called the Vulnerability Assessment Unit in 
Consular Affairs, which is a new analytic unit to take the data 
in the consular data bases and create algorithms that help, you 
know, predict where there are problems, and that we need to do 
much more to support those functions, including for 
investigations conducted by foreign governments of human 
smuggling organizations, major document forgers who are 
supplying and the people who are then showing up at consulates 
and looking for visas. And those teams can be integrated teams 
with people from ICE and CBP, FBI, but there is no need to 
shift this function when you have within the State Department a 
fully capable diplomatic security service, which should indeed 
be involved more deeply with the consulates in looking at the 
visas. They can have full access to the NCIC data which we 
haven't discussed much today, which is one of the trouble 
spots. They're fully qualified to review that data and there's 
no reason why they shouldn't be doing that. And indeed, one of 
the problems was that the visa security officer hasn't been 
able to define a role that's any different from what the 
diplomatic security officer can perform.
    Mr. Van Hollen. Just to sum up, I understand each of your 
testimony was if you had your wish, this function would be in 
one department. I mean, you might differ on which department it 
should be in, but just organizationally, it makes sense to put 
this under one department and get rid of these two people 
sitting side by side with really very much the same mission at 
the end of the day.
    I thank you. I thank you, Mr. Chairman. I have some other 
questions, but after----
    Mr. Shays. No, no, no. Keep going.
    Mr. Van Hollen. Well, let me just ask with respect to the 
waiver program because, you know, there's no doubt ideally that 
if you can be assured that the processes and protections that 
are in place in each of these 27 countries are perfect, that 
obviously that's the best way to assure security in the sense 
that, you know, if you could be 100 percent guaranteed. But 
that of course depends on us, you know, relying on the systems 
that are put in place by these 27 countries, and if the list 
expands more than that number of countries. And at least 
within, in terms of your ability to travel within at least some 
of these 27 countries within the European Community, you know 
you get issued your travel documents in one country, you can 
travel freely within the European Community and get on an 
airplane anywhere you want. I guess the question is as we focus 
so much today on our consular officers, are we focused enough 
on, and have we put the time into really reviewing the security 
measures that are in place in the waiver countries? And I ask 
this question not because I think that, you know, we need to 
clamp down. I really, I don't know the answer to the question. 
I know you have all probably looked at that question. But it 
seems to me it'd be a mistake to focus all our resources and 
attention on closing a barn door in one place while it was wide 
open somewhere else. So if you could all respond to that 
question.
    Mr. Ervin. If I could start on that, Mr. Van Hollen, I 
looked at the security implications of the visa waiver program 
also when I was the Inspector General of Homeland Security and 
I'm concerned about the visa waiver program. One of the things 
that we recommended in that report was the U.S. Visit system be 
applied to visa waiver countries and frankly the Department of 
Homeland Security was slow to do that. We recommended that I 
think in April 2004. It actually wasn't done until the end of 
the year and the Department has acknowledged that there are 
likely terrorists who would not have been caught had U.S. Visit 
not been applied to travelers from those visa waiver countries. 
It's not for nothing, for example, that Zacharias Moussaoui, 
the alleged 20th hijacker, came on a French passport, that 
Richard Reid, the shoe bomber, came on a British passport, etc. 
So it's very important.
    Second, as you suggest, we learned when I was the Inspector 
General of Homeland Security that there wasn't sufficient 
oversight on the part of the Department of Homeland Security of 
the bona fides of the countries participating in the program. 
There wasn't the kind of regular review that is required to 
make sure that countries merit their continued participation in 
the visa waiver program.
    The final comment I'd make, even though now, fortunately, 
the U.S. Visit system is applied to visa waiver countries, 
there's still no way to match the biometrics of the travelers 
from the visa waiver countries with those of the applicant at 
the consulate because of course the visa waiver travelers did 
not apply at consulates. They did not have to obtain a visa. So 
it is a--there's a potential security gap there, needless to 
say, and certainly I would not expand the program.
    Dr. Carafano. Well, of course Clark and I disagree on this. 
My first comment would be that one of the key criteria that no 
one's mentioned is reciprocity. Every country that we give visa 
waiver status gives visa waiver status to us and they're also 
depending on us to keep terrorists from getting passports. And 
you know, we can ask can the United States guarantee that we 
are never going to give a passport to a terrorist, and the 
answer is probably no.
    I agree with Clark that the visa waiver program was created 
before terrorism was a major issue and that we should look at 
mechanisms to strengthen the program, to add in criteria for 
terrorism, to add in means of oversight. But I think the last 
thing we want to do is to abolish it and I would argue we need 
to extend it, and for, you know, two strategic reasons. One is, 
we have to get over the notion that the visa system needs to be 
perfect, because we all know that getting that last 10 percent 
or 15 or whatever is 80 percent of the cost. Visas are part of 
a layered security system, and at the end of the day the visas 
are never going to stop terrorist travel. What's going to stop 
terrorists is counterterrorism operations, intelligence, where 
they go out and get these guys. This is a part of the defensive 
system and a layered system and so it doesn't have to be a 
perfect system. It just has to be a good solid component. And 
if the expectation is no terrorist gets a visa, other than that 
you are not going to be a visa waiver country, then there's 
going to be no visa waiver countries.
    So I think it's a bad expectation to note that this needs 
to be an ironclad perfect system. If we just don't give 
passports and visas to known terrorists, I'd be happy.
    The second is we don't have all the resources in the 
universe and we have to realize that every time we add a visa 
waiver country, that's an enormous amount of resources, because 
most of these countries are people that, where most of the 
people come from, that we can put in other places. I mean there 
are proposals to end the visa waiver program. But when you 
look, when people started running the numbers and what it would 
cost to both the economy and in resourcing to try to give a 
visa to everybody that comes into this country now that doesn't 
need one, it was astronomical. So there's enormous resources. 
It's a tough choice. It's a strategic decision. But it's an 
enormous amount of resources that you could pull up.
    And the third is, you know, we have all talked about and we 
can't give lip service to it, it's economic growth, it's civil 
society and it's security, and all three are important. And we 
can't give economic lip service to the fact that we have 
growing strategic partners that fit and you know we've got 
polling, there's people dying in Iraq and the Czech Republic, 
which has been great, and India, which is an enormously 
important strategic partner, and we have had South Korea, which 
has been a strategic partner for 50 years, and we have turned 
to these countries and we've said, OK, countries like France, 
you know, they can come and go all the time even though they 
disagree with us. But you that have helped us out, you can't. 
You're not eligible for the visa waiver program, and that's 
simply geostrategically dumb. These countries can meet these 
standards. If we tighten our standards they can meet these 
standards and we should be--here I really disagree with Clark. 
We should make a strategic choice to identify key countries, to 
sit down and make a road map on what we can do to get there. If 
we need to add additional measures and oversight we should do 
that. But we should be charging ahead trying to add countries 
on the list and make the countries on the list do better, not 
take countries off.
    Ms. Ginsburg. Well, I mean I agree we should strengthen the 
program. And the first thing we should do is look at the 
airport embarkation points with our strategic partners about 
what we can do to improve the security there, including through 
the use of overseas DHS officers that are not that--are only in 
a very, very few places.
    Mr. Van Hollen. Thank you.
    Mr. Shays. Thank you very much. We appreciate your presence 
at this hearing. You all have gone well, expanded what we've 
asked this morning. But if we just go back to what we discussed 
this morning, what was your reaction to the testimony you heard 
this morning?
    Mr. Ervin. Well, I'll start, Mr. Chairman. I'm very happy 
that you and Mr. Van Hollen probed both the DHS and the State 
personnel to ultimately highlight the fact that the Department 
of Homeland Security has not, apparently, pressured the State 
Department and enlisted the support of Congress to dispatch 
these VSO personnel beyond Saudi Arabia as the law intended. 
And I think it's absolutely critical that this be done. Again, 
this presumes that the VSOs know what they're doing. But I 
think it is possible to find people in our country who can 
serve in this capacity. I question, again, for the reasons that 
I've already said, not to beat a dead horse, whether State 
Department officers can do that.
    I think we need to learn from the lessons of history. After 
all, there were RSOs, regional security officers, before 
September 11th. There had been studies that have shown that 
RSOs have not focused on visa fraud to the extent that they 
should. I know something about that, having been the State 
Department's Inspector General and having fought jurisdictional 
battles frankly with the RSOs since there's a joint 
jurisdictional overlap between RSOs and the Inspector General's 
office. So I think it's critical that this be done, and then 
you highlighted the fact that it hasn't yet been done.
    Mr. Shays. Thank you.
    Dr. Carafano. I think what we heard was incredibly 
predictable. I mean Congress split the baby in a not very clear 
way and it forced these departments to figure out how they were 
going to seamlessly integrate their operations in areas where 
they have tremendous human capital, resource and IT challenge. 
And really they have asked them to do something that no Federal 
agency has ever done, which is to come up with a cooperative 
interagency Federal program of a major scale with major 
resources on the line and say make it all seamless and do it in 
4 years and the fact that they're struggling with it I just 
think is eminently obvious. And if it was anything less I'd 
question whether I was in the right country.
    Mr. Shays. The bottom line, from your standpoint, you did 
it from day one, this system is so flawed that we developed?
    Dr. Carafano. Quite frankly I think we're getting what we 
paid for. I mean we're getting very incremental gains.
    Mr. Shays. The answer is yes to my question?
    Dr. Carafano. Absolutely.
    Ms. Ginsburg. There seems to have been this morning a focus 
on resources, the need for consular personnel, and this is a 
need across our entire border system, the ports of entry as 
well. The investment in the infrastructure, in people, in the 
information systems, is lacking and it is just taking a long 
time to be built up. And I think we have to recognize that this 
is now a national security environment and there's a great deal 
at stake, so that when you are shorting consular officers, 
you're shorting counterterrorism capability.
    And although I don't fully agree with the idea of full 
separation between departments, I think you need fusion centers 
like the Human Smuggling and Trafficking Center, which is 
jointly run by the Justice Department, DHS and the State 
Department, which is a center of expertise on human smuggling, 
human trafficking and soon I believe terrorist travel. And it's 
that kind of interagency cooperation which I think is going to 
make a big difference in connecting dots and in understanding 
trends and patterns.
    Mr. Morris. I think posts abroad certainly----
    Mr. Shays. So the question was--I just want to make sure. 
The question I first asked, before you maybe elaborate on what 
you just heard, what was your reaction to the testimony this 
morning?
    Mr. Morris. Reaction to the testimony this morning on?
    Mr. Shays. When you were sitting in the audience listening 
to this, what were you thinking?
    Mr. Morris. Well, I thought that as an American citizen, 
that I was puzzled why something had been mandated and 2 years 
later had not come about. And being a consular officer in 
Beijing didn't help me understand the bureaucratic reasons why 
it had not happened. So I agreed with your question.
    Mr. Shays. Well, do you think the problem lies more with 
DHS or more with the State Department?
    Mr. Morris. I honestly have no perspective particular to 
give on that. From our perspective and from everything I've 
heard in the State Department, we were told that this was a 
great agreement, we're going to make this work. This is policy.
    Mr. Shays. Great compromise.
    Mr. Morris. Great compromise, and then we waited out in 
Beijing and nothing happened. And when we discussed this with 
other DHS people, not in those types of programs, we didn't get 
a very clear--when we had chances to interact with DHS people 
in the field we would ask them what's going on because we 
wanted to plan for our own sections and how to incorporate them 
and how best to use them. And they couldn't really give us any 
clear answers. So we're just in a waiting mode.
    Mr. Shays. I'm going to ask our professional staff just to 
ask a few questions. And I thank Mr. Van Hollen for being here.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank all of you. 
Thank you, Mr. Chairman.
    Mr. Costa. Mr. Morris, could you expand a little bit on 
what you were just talking about on how at Beijing you 
coordinated the policy, programs, information with the 
intelligence security and law enforcement personnel? Given this 
open setting, what was that conversation that took place? How 
did you get information from the law enforcement and 
intelligence folks? How do you incorporate that into your jobs? 
Were they helpful? Did you have a good relationship with those 
folks?
    Mr. Morris. You mean the people at post, the 
representatives at post?
    Mr. Costa. Yes, sir.
    Mr. Morris. I felt we got great cooperation from all the 
other elements, law enforcement elements, you know, the FBI, 
the DEA, you know, on and on. One of the things that wasn't 
mentioned today is a program where each month, and more 
frequently if necessary, the country teams get together and 
they discuss sharing the information. It's a mandatory meeting 
and it's mandatory that we reported back to departments called 
the Visa Viper program, and the purpose of that is that any 
information that anybody has at post that is in any way 
terrorist related to a potential future application should be 
shared with the consular section and you know, they may be 
transmitting that back to their own home agencies where they 
are supposed to also give it to us. And then we, you know, 
transmit it back in our channels. We got a lot of information 
in Beijing. I think we got good cooperation from that. We 
interacted with the agencies on the security advisory opinions 
related to not just terrorism but also tech transfer, which is 
a big issue with China. They're trying to get our technology, 
basically, and we're trying to prevent it. And when it's going 
to be used for potential dual use, those sorts of things. And 
we worked very closely with the Defense Attache's office, the 
commercial section and others that had expertise in certain 
technical areas that we in the consular sections did not, and 
sought their advice when cases came in and we weren't sure 
exactly what these people were going to the United States to 
try to ferret out. And if it was legitimate or not. So we had 
very good cooperation on that. And we worked closely with DHS 
also locally. But they were not in this particular security 
role.
    Mr. Costa. One of the issues that the GAO brought up was 
the need to increase access to the NCIC data bases, the FBI 
criminal data bases for consular offices, who now it's my 
understanding essentially you get a name hit and it says call 
the FBI and they will run, take a couple of weeks and run a 
background check. How would that have changed your job in 
China, the folks in your office in China? Would that have made 
life easier? Was that something that just would have added 
time?
    Mr. Morris. Sure. The more information you have on an 
applicant, the better. First of all, we had enough information, 
we were given enough information to determine visa eligibility 
so that, you know, that's our basic function. But if you're 
going beyond that to determine, for example, if there's fraud, 
a fraud scheme going on or a terrorist scheme or something of 
that nature, you know, the more information that you can get, 
it gives you a clue to ask another question and to go further. 
So sure, the more information the better. And sometimes the 
information might be, oh, they had a drunk driving conviction, 
you know, in Maryland. But, OK, and then that doesn't help. But 
at least, but sometimes then it may, you may get some 
information that causes you to raise another question and leads 
to a whole different line of inquiry.
    Mr. Costa. Then I guess my last question for all of you, 
but I guess we'll start with you, Mr. Morris, again is are 
there security steps that have been put in place since 
September 11th that maybe have gone too far, that are not 
productive? In your testimony you talked about the SAOs, but 
that seems to be something that's fixed. Of course there's the 
mandatory interview process now, which is fairly controversial. 
Are there issues like that, or you can even expand on that one 
if you like.
    Mr. Morris. Well, I think that there are a lot that are 
coming up in the future, you know, more fingerprinting and more 
facial recognition and, you know, there are many things that 
are coming down the pike. And I think, my point is that the 
department obviously these are very, very important security 
issues. But posts need to be given a heads up, this is coming 
down the pike, and given an opportunity to come back and say, 
if you do this you may make a policy decision to take this 
security step, but it's going to have this negative impact on 
tourism or business or trade or that sort of thing. So--and 
then there may be ways that people, you know, in Washington 
that are developing these policies, they can tweak the 
proposals so that they don't have these unintended effects. You 
said the security advisory opinion problem has been resolved. 
Well, it's been resolved in fact, but in terms of the 
perception in China and in the academic community and in the 
academic world it'll be years before the impact of that goes 
away.
    Mr. Costa. Thank you. Ms. Ginsburg.
    Ms. Ginsburg. I would just say that if you're going to add 
security layers and measures, many of which are very critical, 
then you have to add the personnel and the technology to make 
sure they work efficiently and that requires additional 
investments.
    Dr. Carafano. I'm opposed to mandatory interviews. I think 
it's the same problem I have when we are doing airline 
security. I mean we're using these legacy paradigms to do this 
and we're wasting 99 percent of our resources on 99 percent of 
the people that aren't a problem. You know, this is the 
equivalent of if the cop stopped everybody driving down the 
street and not just people breaking the law. You know, we 
simply need new paradigms that focus resources on the high risk 
people and quit wasting resources on people that we have a 
comfort level with or that are a low risk.
    Mr. Ervin. Thank you. Well, I am a contrarian on this 
point. I disagree with Dr. Carafano. I'm a hard liner on 
security, and I think it's possible to be a hard liner on 
security and at the same time understand the importance of 
diplomacy and understand the importance of resisting our civil 
rights, civil liberties tradition.
    That said, I agree with Ms. Ginsburg that all of this 
requires resources, and I think one of our problems, and I've 
said this on many occasions, is that we've underfunded homeland 
security. There's this false distinction between the security 
of the Nation, where we spare no expense, a $400 billion plus 
defense budget and literally a fraction of that, about a tenth 
of that for the Department of Homeland Security. Certainly more 
resources are required.
    So I'm completely for mandatory interviews. That was one of 
the recommendations I made as the Inspector General of the 
State Department. I'm very pleased to see that's happened 
today. And perhaps it's a failure of imagination on my part, 
but certainly in the visa area I cannot think of a single 
security measure that we've since implemented that I would take 
back. If anything, as you've heard me say, I would increase 
them.
    The final thing I'd say is GAO did make in its report 
today, as you know, the suggestion that a lot of time is wasted 
reviewing applications and Saudi Arabia is the only place where 
VSOs are mandated and it's the only place of course where the 
VSOs have to review every section of the application. I suppose 
it's possible in theory to presume that some Saudi person, some 
Saudi who is 5 years old, say, or some Saudi who is 99 years 
old probably wouldn't pose a security threat to the United 
States. But frankly, in this post-September 11th environment, I 
am skeptical about the ability of our government, and I think 
Katrina showed a couple of weeks ago, I'm skeptical of the 
ability of our government to draw distinctions and to work in 
the gray areas. That being so, I argue for more security, 
recognizing that is very costly. And as I say, I for one, and I 
say that incidentally as a conservative Republican, am willing 
to put the resources behind it.
    Mr. Costa. Thank you, Mr. Ervin. Thank you, Mr. Chairman.
    Mr. Shays. Thank you. It's a little off subject, but I 
wrestle with it and it gets to the point of how far does your 
security go? We are hearing continually from universities that 
the best and brightest students are being denied opportunity to 
study in the United States, and I think that is tragic. We are 
told that they have given up in many cases, applied and been 
accepted in European schools, in Chinese schools, in Russian 
schools, but not in the United States. Is there any indication 
that students have been the problem in the past, No. 1? And do 
you, any of you, have a strong feeling one way or the other on 
this issue?
    Mr. Ervin. If I could just start. Well, of course some of 
the people we were concerned about on September 11th were 
flight students. You're not talking about flight students 
certainly.
    Mr. Shays. I'm talking university students going for Ph.D. 
programs, and so on.
    Mr. Ervin. I can't think of any instance. But I agree with 
you. Certainly there has been evidence to suggest that students 
who we need for the continued economic success and the vitality 
of our country are going elsewhere because of the length of 
time it now takes for visas to be processed. And that's why, as 
I said, I think it's possible for there to be security and an 
advance in liberty and economic progress for our country, but 
that requires infinitely more resources. I think the State 
Department budget should be increased rather dramatically, 
right along with that of the Department of Homeland Security.
    Dr. Carafano. Known and suspected terrorists have tried to 
come to the United States on student visas. But the more 
important point is known and suspected terrorists have tried to 
come into the United States using virtually every means, 
asylum, illegal entry. So if there's a means to get here the 
terrorists have tried to exploit it.
    There has been a decline in foreign students coming to the 
United States. Security certainly has contributed to that over 
the last few years. There are other reasons as well. Other 
countries have targeted foreign students and tried to bring 
them there, and it's a much more competitive world. And the 
United States is less competitive in getting students here and 
the security is part of it. And it is a serious issue. It seems 
to have bottomed out. There's data coming out next month which 
will tell us if we have turned the corner or not. But even 
before September 11th we were already on a decline for that.
    You know, we have to look at these issues strategically. If 
we had infinite money to spend on everything that would be 
fine. But we don't and what we are doing is we're spending a 
lot of on money on a lot of things and not getting much of 
anything.
    Mr. Shays. How does that relate to my question?
    Dr. Carafano. It absolutely does because we need to make 
some hard choices. I mean, we're going to beat these guys in 
the end anyway. The point is economic growth and 
competitiveness are part of national security. Making this 
country strong by bringing these foreign students here and 
growing our economy is part of what makes us strong and pay for 
national security. So when we said, well, we can't sacrifice 
security for these things, those things are security.
    Mr. Shays. You're making this point because you obviously 
want me to understand something. I'm missing your point. My 
question is----
    Dr. Carafano. The point is, is that----
    Mr. Shays. You don't know where I have my problem, so let 
me explain to you where I have my problem. You're making an 
assumption. I'm understanding you based on words you're using 
that I'm not understanding. Not your fault, my fault, but it's 
your fault if you're not listening to my problem here. I asked 
about whether or not it was a cost to us to deny so many 
students the opportunity to come based on either denial or 
taking too long. I mean, in other words, they apply, Yale 
starts its program in September and they can't even get here 
until December. They're out of the program. So what I didn't 
understand about what you said is you said it was resources. 
Connect resources to that issue.
    Dr. Carafano. Well, the answer to your question is 
absolutely yes. The security procedures that are put in place 
since September 11th have made less students come here and it 
does make us less competitive. It's not the only reason why 
students are going other places and why we are losing them but 
it is one of them.
    Mr. Shays. I heard that part.
    Dr. Carafano. The argument that we can't make it easier for 
students to come here, we can't do this because it's security, 
I don't buy that argument because getting them here and growing 
this country and making it economically strong is equally 
important to the security of the United States as it is trying 
to keep terrorists out.
    Mr. Shays. And so the problem is----
    Dr. Carafano. The problem is you want a visa system that's 
good enough, that keeps known and suspected terrorists from 
getting visas. But beyond that I think you invest elsewhere in 
going out in preemptive measures. So I would say in trying to--
as a layer of security, in trying to keep people coming to the 
United States and trying to interdict terrorist travel, the No. 
1 priority should be illegal means of entry and exit, making 
sure that those documents are secure and issued to the right 
people, and it should be keeping known and suspected terrorists 
from getting them. Once you've done that you take your 
investments and you put them elsewhere.
    Mr. Shays. Ms. Ginsburg.
    Ms. Ginsburg. We clearly had a big problem at the 
beginning.
    Mr. Shays. I want you to put your mic a little closer. I'm 
sorry. It's not your fault. It's just the mic is not working as 
well.
    Ms. Ginsburg. We clearly had a big problem at the beginning 
with huge delays and are now facing the diplomatic consequences 
of that. I think there is a problem, there are still long 
delays in the tech visa category. But I think the answer, I 
definitely agreed that known and suspected terrorists have been 
associated with the student program here and in England and 
elsewhere in Europe and it's a serious consideration. So we do 
need security in that process. And we need followup security by 
ICE using terrorism related data bases to make sure that there 
is continued compliance with the terms of the student visas.
    But I mean, we need enough people to do that and we need it 
to move fast and we need not to have delays, as were 
illustrated by the problem with the NCIC data process. We need 
computerization, automation algorithms and all the things that 
speed up those kinds of check.
    Mr. Shays. Mr. Morris.
    Mr. Morris. First of all, I would just like to note that 
actually the numbers, at least from China, are bouncing back. 
They're coming back after a decline. We've had extensive public 
relations campaigns, you know. We welcome, you know, legitimate 
Chinese students.
    Mr. Shays. If they are increasing again, is that because 
they're just willing to wait an extra year and just--the 
timeframe clearly takes longer.
    Mr. Morris. For most students the timeframe is really not 
an issue and never has been an issue, and the refusal rate has 
never been an issue. It is more the perceptions. Perceptions 
are huge in a place like China, where, you know, one message 
goes out and they all believe that. So there are some still----
    Mr. Shays. Well, I'll just tell you I've spoken to a number 
of different university officials, not necessarily presidents, 
who they tell me they're losing their students and they're 
losing them because they can't get them in here. That's what 
they're telling me.
    Mr. Morris. I think in the years after September 11th, 2 or 
3 years, that's exactly true. But I think that if you look at 
the numbers recently, you'll see that they're beginning to come 
back. The Chinese students are beginning to come back. But I 
absolutely agree that we're not only losing--if we discourage 
the students from coming we're losing not only the benefits to 
our universities and the academic exchanges and our own economy 
in the short term but in the long term.
    I have been posted in other Asian nations where you go and 
you know everybody in leadership positions in journalism and 
politics and business have had American educations and they 
send business our way. They understand America. And I think 
China is such an important place, you know, we need that sort 
of people going back, bright students going back.
    Mr. Shays. Dr. Carafano was basically making the point that 
it's a flawed system. We have three folks involved in this 
process, three different departments, and one would be better, 
and I think your choice was DHS, correct?
    Dr. Carafano. Yes, sir, that's correct.
    Mr. Shays. Nodding the head doesn't get on the transcript.
    Dr. Carafano. Yes, sir. That's correct.
    Mr. Shays. There's always, you know, you dig a little 
deeper, there's always these tradeoffs and you realize why it 
doesn't happen, like it seems so obvious to have DHS do it. I'm 
trying to recall, but, you know, I rarely have conversations 
with the Secretary directly, but this was one area that he was 
pretty concerned that this would be taken away from State. And 
then I remember having conversations with other State officials 
who said, you know, this is part of the work that you do in 
State and it's kind of like you have to earn your spurs and it 
helps round you as a State Department official, interaction 
with the communities and so on. So aside from the fact that no 
one in government likes something taken from them, there 
appears to be logic to why you would want them to interface 
that way, at least to me.
    I'd like you to react to that. In other words, if you did 
take it away from State, not likely to happen, but if you did, 
and give this whole process to DHS, is there a cost to State, 
in your judgment? Would they suffer from it? Would our State 
Department officials, when they were senior officials, have 
lost some experiences that would be important to them?
    Let me start with you, Mr. Morris. We'll go that way. Do 
you understand the question?
    Mr. Morris. You mean taking away the visa function from the 
State Department?
    Mr. Shays. Yes. Would it--the argument, I could just tell 
you I could agree with Dr. Carafano that, you know, just give 
it to DHS. In other words, you want to come to the United 
States, you just give it to DHS. And I see you shaking your 
head but I can see the argument. But then I can see a counter 
argument that says State Department, which is maybe more warm 
and fuzzy, may need that process and the interacting with the 
community, that country, people coming in, requesting to go to 
the United States. The interaction may be part of what's needed 
to round the State Department experience for someone so that 
when they are a senior official they went through that process. 
Did you go through that process as a State Department official?
    Mr. Morris. Absolutely. I mean, relationships between 
nations are not just sitting in big meetings and talking about 
the six party talks. They're human relationships. And, I would 
argue that those are the most important relationships over time 
that nations develop. You know, we're close to many countries 
in the world because our people have an affinity for each other 
and they have relatives and they----
    Mr. Shays. I'm not arguing about whether people should come 
into the United States. I'm arguing whether--and I'm sorry this 
seems to be so complex. I'm arguing whether there is argument 
that State Department needs to be the one handling it so they 
have that experience as part of being in the State Department 
as making them a well rounded State Department official. Did 
you do this process? Did you go--as a junior officer in State, 
did you do that?
    Mr. Morris. Absolutely. I started as a Vice Consul.
    Mr. Shays. If that had been taken away from you as an 
experience, would you be less of an official?
    Mr. Morris. Absolutely.
    Mr. Shays. OK. That's the question.
    Ms. Ginsburg.
    Ms. Ginsburg. I think that the idea of having one 
department only involved in homeland security is, you know--
would be very atypical of how our government works. We have 
criminal justice capacity across many agencies of government. 
We have intelligence capacities across many agencies of 
government, including in State and local police forces, 
including, increasingly, functions relating to immigration. I 
think there's a kind of seamlessness that's needed for 
terrorism that can't be confined to one department.
    So competitive intelligence, sources of information that 
are multiple, different takes on a problem are very, very 
valuable when you're dealing with an adversary that's so 
illusive. So I think it--you know, there is an important 
function.
    Mr. Shays. Well, you're making the argument that you're not 
concerned when more than one department gets involved in the 
process. Dr. Carafano.
    Dr. Carafano. Well, the answer to your question is no. I 
mean there's other ways that State Department officials could 
get the cultural and professional development they need to 
proceed in their career. And quite simply, visa processing is 
not central to the core mission of what the State Department 
should be doing in the 21st century and it is central to the 
core mission of the Department of Homeland Security, which is 
preventing, which is supervising the means of trade and travel 
in the United States to prevent terrorism. So it's vital to the 
core competency of one department. It is an add-on to the core 
competency of the other department. It's only there because 
it's always been there since the 18th century. That's a poor 
reason to keep it there.
    Mr. Ervin. Well, I agree with my colleagues in part and I 
disagree with them in part. I agree with Dr. Carafano that 
there are other ways, it seems to me, for State Department 
officers to get the interaction with the local community that 
they need in order to be effective in that country and in order 
to be effective later in their careers. Of course there are 
political officers and embassies, there are economic and 
commercial officers. There are other things that consular 
officers do besides the visa functions, so there are other ways 
to get that experience. Point one.
    Point two, I'm actually not opposed to the present 
bifurcation. I think as compromises in our government go, the 
logic of it, and that's the key word, makes a lot of sense. 
It's the effectiveness of it that I question. I'm just afraid 
that if in fact DHS were to have the entire function, although 
if you have to choose one agency or the other I would put it in 
DHS, but the problem it seems to me with giving the entire 
function, not just looking at things from a counterterrorism 
perspective but the whole visa function to DHS is the opposite 
problem, that you need to focus on diplomacy as well. A DHS 
officer might focus unduly on counterterrorism at the expense 
of diplomacy.
    Dr. Carafano. Could I just followup on that?
    Mr. Shays. Sure.
    Dr. Carafano. Yes. I simply think that's a false argument. 
I mean one of the arguments not to give it to DHS----
    Mr. Shays. Which argument?
    Dr. Carafano. The argument that security, the security 
culture is going to twist this in some way. The argument 
against giving it to DHS is, well, those guys only care about 
security. They're not going to care about diplomacy and trade 
facilitation, so that's one of the reasons why we have to keep 
that in State. But if you look at the evidence, for example, 
the recent GAO investigations that were interviews of State 
Department officials in Canada, and if you talk to any State 
Department official that's in the visa process, they all tell 
you that their No. 1 concern is security. So I mean the guys 
that were supposed to be only concerned about trade 
facilitation and diplomacy, they're obsessed with security.
    Mr. Shays. But I could use your argument and just use it 
against you and make the point that to say that State 
Department is one dimensional would be false, too?
    Dr. Carafano. I absolutely agree with you, and because DHS 
has people who are as concerned with trade facilitation and 
movement of people as well.
    Mr. Shays. So if you agree with me, what's your point?
    Dr. Carafano. That there is no notion that because you put 
it in one department you're going to get this kind of 
insulation and you know they're going look at these other 
things.
    Mr. Shays. But your point----
    Dr. Carafano. It's a false argument.
    Mr. Shays. OK. Your point to this subcommittee is though 
that you would prefer, in fact you think it's nonsensical to do 
it any other way, than to have one department and the reason 
why we took it away from State where we had them do it was we 
felt that they were too much involved in the service side of it 
and not enough involved with the security side? That's the 
reason why we did it?
    Dr. Carafano. I think that's the wrong argument. I don't 
think it's--the culture argument I think is not a valid basis 
for the decision. The reason why I would take it away from 
State is I don't think it is a core competency of the State 
Department and I think it is a core competency and a core 
mission of DHS.
    Mr. Shays. Well, some day.
    Dr. Carafano. Well, it should be.
    Mr. Shays. OK. Is there anything that we need to put on the 
record, any question we should have asked, any statement you 
want to put on the record before we close out?
    Mr. Ervin. Maybe just one final thing, sir.
    Mr. Shays. Sure.
    Mr. Ervin. Not to belabor the point, but I think it's 
important in this last exchange to be clear about what the 
``it'' is and what the core competencies are and what was taken 
away and what wasn't. I mean, to be precise, of course the visa 
function itself, the entirety of the visa function was not 
taken away from the State Department. It's only--the question 
is should there be some additional layer of review strictly 
from a counterterrorism perspective to make sure that in the 
future to the extent that can be humanly done of course we 
won't let terrorists into the country. The question is should 
there that be an additional layer of review and, if so, who 
should provide it.
    Mr. Shays. And the question that we can't answer today, 
which is kind of pathetic, is we've had 2 years experience in 
Saudi Arabia. Tell us the benefit.
    Mr. Ervin. I couldn't agree with you more. I think it's 
inexcusable that it's taken us 2 years to determine whether the 
program is effective and if the program can be as effective as 
Congress initially intended for it to be. Then it's critical, 
as I said, that it be expanded throughout the world because 
terrorists can go to any of 209 other visa issuing posts and 
get a visa there.
    Mr. Shays. And at the very least do it in a few other--in a 
sense that it's become a pilot program based on the pushback of 
State and the lack of aggressiveness on the part of DHS?
    Mr. Ervin. Precisely.
    Mr. Shays. Well, you know, you're finally getting through 
to me here.
    Any other comment? So with that, thank you, all four of 
you, for your testimony. We appreciate it very much. And with 
that, this hearing is adjourned.
    [Whereupon, at 1:03 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T3853.071

[GRAPHIC] [TIFF OMITTED] T3853.072

[GRAPHIC] [TIFF OMITTED] T3853.073

[GRAPHIC] [TIFF OMITTED] T3853.074

[GRAPHIC] [TIFF OMITTED] T3853.075

[GRAPHIC] [TIFF OMITTED] T3853.076

[GRAPHIC] [TIFF OMITTED] T3853.077

[GRAPHIC] [TIFF OMITTED] T3853.078

[GRAPHIC] [TIFF OMITTED] T3853.079

[GRAPHIC] [TIFF OMITTED] T3853.080

[GRAPHIC] [TIFF OMITTED] T3853.081

[GRAPHIC] [TIFF OMITTED] T3853.082

[GRAPHIC] [TIFF OMITTED] T3853.083

[GRAPHIC] [TIFF OMITTED] T3853.084

[GRAPHIC] [TIFF OMITTED] T3853.085

[GRAPHIC] [TIFF OMITTED] T3853.086

                                 <all>

</pre></body></html>
